C a s e 2 0- 1 2 7 5, D o c u m e nt 8 2- 1, 0 2/ 1 8/ 2 0 2 1, 3 0 3 8 4 3 7, P a g e 1 of 8

2 0 -1 2 7 5 -b k
I n re: Wi n dstre a m H ol di n gs, I n c.

U NI T E D S T A T E S C O U R T O F A P P E A L S
F O R T H E S E C O N D CI R C UI T
S U M M A RY O R DE R
R U LI N G S B Y S U M M A R Y O R D E R D O N O T H A V E P R E C E D E N TI A L E F F E C T.
CI T A TI O N T O A S U M M A R Y O R D E R FI L E D O N O R A F T E R J A N U A R Y 1, 2 0 0 7, I S
P E R MI T T E D A N D I S G O V E R N E D B Y F E D E R A L R U L E O F A P P E L L A T E P R O C E D U R E
3 2. 1 A N D T HI S C O U R T ’S L O C A L R U L E 3 2. 1. 1.
W H E N CI TI N G A S U M M A R Y O R D E R
I N A D O C U M E N T FI L E D WI T H T HI S C O U R T, A P A R T Y M U S T CI T E EI T H E R T H E
F E D E R A L A P P E N DI X O R A N E L E C T R O NI C D A T A B A S E ( WI T H T H E N O T A TI O N
“ S U M M A R Y O R D E R ” ). A P A R T Y CI TI N G T O A S U M M A R Y O R D E R M U S T S E R V E
A C O P Y O F I T O N A N Y P A R T Y N O T R E P R E S E N T E D B Y C O U N S E L.
At a st at e d t er m of t h e U nit e d St at e s C o urt of A p p e al s f or t h e S e c o n d Cir c uit,
h el d at t h e T h ur g o o d M ar s h all U nit e d St at e s C o urt h o u s e, 4 0 F ol e y S q u ar e, i n t h e
Cit y of N e w Y or k, o n t h e 1 8 t h d a y of F e br u ar y , t w o t h o u sa n d t w e nt y-o n e .
P R E S E N T:
J O H N M. W A L K E R, J R.,
R O B E R T D. S A C K,
RI C H A R D J . S U L LI V A N ,
Cir c uit J u d ges ,
_____________________________________
I N R E : W I N D S T R E A M H O L DI N G S , I N C .
_____________________________________
G L M D F W, I N C .,
Cre dit or -A p pell a nt ,
v.

N o. 2 0 -1 2 7 5 - b k

W I N DS T R E A M H O L DI N G S , I N C .,
De bt or -A p pellee .
_____________________________________

1a

C a s e 2 0- 1 2 7 5, D o c u m e nt 8 2- 1, 0 2/ 1 8/ 2 0 2 1, 3 0 3 8 4 3 7, P a g e 2 of 8

F or Cr e dit or -A p p ell a nt :

D A V O R R U K A VI N A , M u n s c h H ar dt K o pf
& H arr P. C. , D all a s, T X.

F or D e bt or -A p p ell e e :

C. H A R K E R R H O D E S I V (St e p h e n E.
H e s sl er,
P. C., S ar a S h a w T at u m,
Kir kl a n d & Elli s L L P, N e w Y or k, N Y , o n
t he brief), Kir kl a n d
& Elli s L L P,
W a s hi n gt o n , D C .

A p p e al fr o m t h e U nit e d St at e s Di stri ct C o urt f or t h e S o ut h er n Di stri ct of
N e w Y or k (C at h y S ei b el, Ju d ge ).
UP O N

D UE

C O N SI D E R A TI O N,

IT

IS

HE REBY

O R D E R E D,

A DJ U D G E D, A N D D E C R E E D t h at t hi s a p p e al i s DI S MI S S E D .
G L M D F W, I n c. a p p e al s a n or d er of t h e di stri ct c o urt ( S ei b el, J.) affir mi n g
a n or d er of t h e b a n kr u pt c y c o urt ( Dr ai n, B a n kr. J. ) t h at gr a nt e d t h e d e bt or-i np o s s e s si o n,

Wi n d str e a m H ol di n g s, I n c., t h e a ut h orit y t o p a y v ari o u s pr e p etiti o n

d e bt s h el d b y c ert ai n criti c al v e n d or s a n d ot h er cr e dit or s w hil e Wi n d str e a m w a s
still i n b a n kr u pt c y .

G L M ar g u e s pri m aril y t h at, i n gr a nti n g Wi n d str e a m’ s m oti o n

o v er G L M’ s o bj e cti o n , t h e b a n kr u pt c y c o urt i m pr o p erl y d el e g at e d it s j u di ci al
a ut h orit y t o Wi n d str e a m .

G L M’ s p o siti on i s t h at t h e b a n kr u pt c y c o urt e s s e nti all y

r u b b er- st a m p e d Wi n d str e a m’ s pr o p o s e d li st of cr e dit or s, a n d s h o ul d h a v e i n st e a d
c o n d u ct e d a cr e dit or - b y-cr e dit or a n al y si s b ef or e all o wi n g Wi n d str e a m t o off er a n y

2a

C a s e 2 0- 1 2 7 5, D o c u m e nt 8 2- 1, 0 2/ 1 8/ 2 0 2 1, 3 0 3 8 4 3 7, P a g e 3 of 8

cr e di t or pr ef er e nti al tr e at m e nt.

S e p ar at el y, G L M a r g u e s t h at t h e b a n kr u pt c y

c o urt err e d b y n ot r e q uiri n g Wi n d str e a m t o p u bli cl y di s cl o s e t h at li st of cr e dit or s.
W hil e t hi s a p p e al w a s p e n di n g, t h e b a n kr u pt c y c o urt

c o nfir m e d Wi n d str e a m’ s

pl a n of r e or g a ni z ati o n a n d Wi n d str e a m s u b st a nti all y c o n s u m m at e d t h at pl a n.
W e a s s u m e t h e p arti e s’ f a mili arit y wit h t h e u n d erl yi n g f a ct s, pr o c e d ur al
hi st or y, a n d i s s u e s o n a p p e al.
Di s c u s si o n
E q uit a bl e
di s mi s s a

m o ot n e s s i s a pr u d e nti al d o ctri n e u n d er

w hi c h a c o urt

ma y

b a n kr u pt c y a p p e al “ w h e n, e v e n t h o u g h eff e cti v e r eli ef c o u l d

c o n c ei v a bl y b e f a s hi o n e d, i m pl e m e nt ati o n of t h at r eli ef w o ul d b e i n e q uit a bl e. ”
See De uts c he B a n k A G v.

Metr o me di a Fi ber Net w or k, I n c. (I n re

Metr o me di a Fi ber

Net w or k, I n c. ), 4 1 6 F. 3 d 1 3 6, 1 4 3 ( 2 d Cir. 2 0 0 5) (i nt er n al q u ot ati o n m ar k s o mitt e d);
see als o Frito- L a y, I n c. v. L T V Steel C o. (I n re C h ate a u g a y C or p.), 1 0 F. 3 d 9 4 4, 9 4 9– 5 0
( 2 d Cir. 1 9 9 3). T h e d o ctri n e i s d e pl o y e d i n a “ pr a g m ati c ” a n d fl e xi bl e f a s hi o n,
a n d m u st b e r e s p o n si v e t o t h e “ s p e cifi c f a ct or s pr e s e nt e d i n a p arti c ul ar c a s e. ”
Bee m a n v. B GI Cre dit ors’ Li q ui d ati n g Tr. (I n re B GI I n c.), 7 7 2 F. 3 d 1 0 2, 1 0 7– 0 8 ( 2 d
Cir. 2 0 1 4) (i nt er n al q u ot ati o n m ar k s o mitt e d). Alt h o u g h e q uit a bl e m o ot n e s s i s

3a

C a s e 2 0- 1 2 7 5, D o c u m e nt 8 2- 1, 0 2/ 1 8/ 2 0 2 1, 3 0 3 8 4 3 7, P a g e 4 of 8

“ di sti n c t fr o m c o n stit uti on al m o ot n e s s, ” t h e t w o “ h a v e b e e n di s c u s s e d i n t h e s a m e
br e at h. ”

Metr o me di a Fi ber Net w or k , 4 1 6 F. 3 d at 1 4 3 – 4 4.

T h e pri m ar y p ur p o s e of e q uit a bl e m o ot n e s s i s t o gi v e c o urt s a t o ol “t o a v oi d
di st ur bi n g a r e or g a ni z ati o n pl a n o n c e i m pl e m e nt e d. ”

I d. at 1 4 4.

A s a r e s ult,

w h er e, a s h er e, s u c h a pl a n h a s alr e a d y b e e n s u b st a nti all y c o n s u m m at e d, w e
pr e s u m e t h at a n a p p e al i s e q uit a bl y m o ot.

See M o me nti ve Perf or m a n ce M ateri als

I n c. v. B O K F, N A (I n re M P M Sili c o nes, L. L. C.), 8 7 4 F. 3 d 7 8 7, 8 0 4 ( 2 d Cir. 2 0 1 7); B GI ,
7 7 2 F. 3 d at 1 0 8.

A p art y s e e ki n g t o o v er c o m e t h at pr e s u m pti o n m a y d o s o o nl y

b y d e m o n str ati n g t h at fi v e f a ct or s – d u b b e d t h e C h ate a u g a y f a ct or s – ar e m et:
( 1)

“t h e c o urt c a n still or d er s o m e eff e cti v e r eli ef; ”

( 2)

“ s u c h r eli ef will n ot aff e ct t h e r e -e m er g e n c e of t h e d e bt or a s a
r e vit ali z e d c or p or at e e ntit y; ”

( 3)

“ s u c h r eli ef will n ot u nr a v el i ntri c at e tr a n s a cti o n s s o a s t o
k n o c k t h e pr o p s o ut fr o m u n d er t h e a ut h ori z ati o n f or e v er y
tr a n s a cti o n t h at h a s t a k e n pl a c e a n d cr e at e a n u n m a n a g e a bl e,
u n c o ntr oll a bl e sit u ati o n f or t h e [ b] a n kr u pt c y [ c]o urt; ”

( 4)

“t h e p arti e s w h o w o ul d b e a d v er s el y aff e ct e d b y t h e
m o difi c ati o n h a v e n oti c e of t h e a p p e al a n d a n o p p ort u nit y t o
p arti ci p at e i n t h e pr o c e e di n g s; ” a n d

( 5)

“t h e a p p ell a nt p ur s u e d wit h dili g e n c e all a v ail a bl e r e m e di e s t o
o bt ai n a st a y o f e x e c uti o n of t h e o bj e cti o n a bl e or d er if t h e
f ail ur e t o d o s o cr e at e s a sit u ati o n r e n d eri n g it i n e q uit a bl e t o
r e v er s e t h e or d er s a p p e al e d fr o m. ”

4a

C a s e 2 0- 1 2 7 5, D o c u m e nt 8 2- 1, 0 2/ 1 8/ 2 0 2 1, 3 0 3 8 4 3 7, P a g e 5 of 8

C h ate a u g a y , 1 0 F. 3 d at 9 5 2– 5 3 (i nt er n al q u ot ati o n m ar k s a n d alt er ati o n s o mitt e d) .
It i s t h e a p p ell a nt’ s b ur d e n t o s h o w t h at all fi v e of t h e s e f a ct or s ar e s ati sfi e d . See
B GI , 7 7 2 F. 3 d at 1 0 8, 1 1 0; see als o R 2 I n vs., L D C v. C h arter C o m mc ’ ns, I n c. (I n re C h arter
C o m m c’ ns, I n c. ), 6 9 1 F. 3 d 4 7 6, 4 8 2, 4 8 4 ( 2 d Cir. 2 0 1 2).
G L M t a k e s t h e p o siti o n t h at t h e e q uit a bl e

m o ot n e s s d o ctri n e i s si m pl y

i n a p pli c a bl e i n t hi s c a s e b e c a u s e t h e a p p e al d o e s n ot dir e ctl y c o n c er n t h e
b a n kr u pt c y c o urt’ s or d er c o nfir mi n g

Wi n d str e a m’ s pl a n of r e or g a ni z ati o n.

We

di s a gr e e.
O ur pr e c e d e nt i s cl e ar t h at e q uit a bl e m o ot n e s s c a n b e a p pli e d “i n a r a n g e of
c o nt e xt s , ” i n cl u di n g a p p e al s i n v ol vi n g all m a n n er of b a n kr u pt c y c o urt or d er s.
B GI , 7 7 2 F. 3 d at 1 0 9 & n. 1 2 ( c oll e cti n g c a s e s). I n f a ct, C h a te a u g a y it s elf a p pli e d t h e
d o ctri n e t o di s mi s s a cr e dit or’ s c h all en g e t o v ari o u s or d er s, s e v er al of w hi c h w er e
i n d e p e n d e nt of t h e b a n kr u pt c y c o urt’ s d e ci si o n t o c o nfir m t h e r e or g a ni z ati o n
pl a n.

See 1 0 F. 3 d at 9 4 8.

G L M’ s ar g u m e nt t h er ef or e h a s n o b a si s i n l a w.

O n t o p of t h at , G L M’ s p o siti o n m a k e s littl e s e n s e. F or o n e t hi n g, G L M
i g n or e s t h e f a ct t h at a n a p p e al d o e s n ot n e e d t o dir e ctl y c h all e n g e a r e or g a ni z ati o n
pl a n t o i m p a ct t h at pl a n ; a s di s c u s s e d b el o w, t hi s a p p e al i s a pri m e e x a m pl e of t h at
p h e n o m e n o n.

F or a n ot h er, G L M o v erl o o k s t h e i m p ort a nt i nt er e st of fi n alit y t h at

5a

C a s e 2 0- 1 2 7 5, D o c u m e nt 8 2- 1, 0 2/ 1 8/ 2 0 2 1, 3 0 3 8 4 3 7, P a g e 6 of 8

att a c h e s o n c e a r e or g a ni z ati o n pl a n i s a p pr o v e d a n d c o n s u m m at e d . See
Sili c o nes , 8 7 4 F. 3 d at 8 0 4 ( e x pl ai ni n g t h at e q uit a bl e

MP M

m o ot n e s s “r e q uir e s u s t o

‘ c ar ef ull y b al a n c e t h e i m p ort a n c e of fi n alit y i n b a n kr u pt c y pr o c e e di n g s a g ai n st t h e
a p p ell a nt’ s ri g ht t o r e vi e w a n d r eli ef’ ” ( q u oti n g C h arter C o m m c’ ns , 6 9 1 F. 3 d at
4 8 1)) .

C o n s e q u e ntl y,

w e c o n cl u d e t h at t h e e q uit a bl e

m o ot n e s s d o ctri n e

is

a p pli c a bl e i n t hi s c a s e e v e n t h o u g h G L M h a s n ot e x pr e s sl y a s k e d u s t o r ej e ct t h e
b a n kr u pt c y c o urt’ s a p pr o v al of Wi n d str e a m’ s pl a n of r e or g a ni z ati o n .
A p pl yi n g t h e d o ctri n e h er e , G L M h a s cl e arl y f ail e d t o d e m o n str at e t h at it
m e et s all fi v e of t h e C h ate a u g a y f a ct or s.

M o st n ot a bl y, G L M di d n ot “ p ur s u e[]

wit h dili g e n c e all a v ail a bl e r e m e di e s t o o bt ai n a st a y of e x e c uti o n of t h e
o bj e cti o n a bl e or d er. ”

C h ate a u g a y , 1 0 F. 3 d at 9 5 3 (i nt er n al q u ot ati o n

m ar k s

o mitt e d) ; see als o B GI, 7 7 2 F. 3 d at 1 1 0. I n d e e d, G L M n e v er s o u g ht t o st a y t h e
b a n kr u pt c y c o urt’ s i niti al or d er p er mitti n g Wi n d str e a m t o p a y v ari o u s pr e p etiti o n
d e bt s, n or di d G L M s e e k a n e x p e dit e d a p p e al or a s k t h e b a n kr u pt c y c o urt t o h ol d
off o n c o nfir mi n g t h e r e or g a ni z ati o n pl a n u ntil t hi s di s p ut e h a s b e e n r e s ol v e d.
T hi s dili g e n c e r e q uir e m e nt h a s b e e n d e s cri b e d a s a “ c hi ef c o n si d er ati o n ”
u n d er C h ate a u g a y .

Metr o me di a Fi ber Net w or k , 4 1 6 F. 3 d at 1 4 4; see als o

MP M

Sili c o nes , 8 7 4 F. 3 d at 8 0 4. “I n t h e a b s e n c e of a n y r e q u e st f or a st a y, t h e q u e sti o n i s

6a

C a s e 2 0- 1 2 7 5, D o c u m e nt 8 2- 1, 0 2/ 1 8/ 2 0 2 1, 3 0 3 8 4 3 7, P a g e 7 of 8

n ot s o l el y w h et h er w e c a n pr o vi d e r eli ef wit h o ut u nr a v eli n g t h e [ p]l a n, b ut al s o
w h et h er w e s h o ul d pr o vi d e s u c h r eli ef i n li g ht of f air n e s s c o n c er n s. ”

Metr o me di a

Fi ber Net w or k , 4 1 6 F. 3 d at 1 4 5; see als o M P M Sili c o nes , 8 7 4 F. 3 d at 8 0 4– 0 5 . H er e ,
f air n e s s c o n c er n s str o n gl y c o u n s el i n f a v or of di s mi s si n g G L M’ s a p p e al.
Gr a nti n g G L M t h e r eli ef it s e e k s c o ul d c a u s e t e n s of milli o n s of d oll ar s i n
pr e vi o u sl y s ati sfi e d cl ai m s t o s pri n g b a c k t o lif e, t h er e b y p ot e nti all y r e q uiri n g t h e
b a n kr u pt c y c o urt t o r e o p e n t h e pl a n of r e or g a ni z ati o n.
at 9 5 3 ( r e a s o ni n g t h at e q uit a bl e

m o ot n e s s a p pli e s w h e n

See C h ate a u g a y , 1 0 F. 3 d
gr a nti n g r eli ef c o ul d

t hr e at e n t o u nr a v el tr a n s a cti o n s t h at h a v e alr e a d y t a k e n pl a c e or c o ul d ot h er wi s e
“ cr e at e a n u n m a n a g e a bl e, u n c o ntr oll a bl e sit u ati o n f or t h e [ b]a n kr u pt c y [ c]o urt ”
(i nt er n al q uot ati o n m ar k s o mitt e d)) ; see als o Off. C o m m. of U nse c ure d Cre dit ors of
L T V Aer os p a ce & Def. C o. v. Off. C o m m. of U nse c ure d Cre dit ors of L T V Steel C o. (I n re
C h ate a u g a y C or p. ), 9 88 F. 2 d 3 2 2, 3 2 6 ( 2 d Cir. 1 9 9 3) ( e x pl ai ni n g t h at “ c o m pl et e d a ct s
i n a c c or d a n c e wit h a n u n st a y e d or d er of t h e b a n kr u pt c y c o urt m u st n ot t h er e aft er
b e r o uti n el y v ul n er a bl e t o n ullifi c ati o n if a pl a n of r e or g a ni z ati o n i s t o s u c c e e d ”) .
M or e o v er, it w o ul d li k el y b e hi g hl y di sr u pti v e f or t h e cr e dit or s t h at r e c ei v e d t h e s e
f u n d s t o r et ur n th e m m or e t h a n a y e ar l at er.

A n d w hil e a p ar a d e of h orri bl e s i s

n ot g u ar a nt e e d t o o c c ur, “[ h] a vi n g s o u g ht n o st a y of t h e b a n kr u pt c y c o urt’ s or d er

7a

C a s e 2 0- 1 2 7 5, D o c u m e nt 8 2- 1, 0 2/ 1 8/ 2 0 2 1, 3 0 3 8 4 3 7, P a g e 8 of 8

( a n d n o e x p e dit e d a p p e al), [ G L M] b e ar[ s] t h e b ur d e n of t hi s u n c ert ai nt y. ”
Metr o me di a Fi ber Net w or k , 4 1 6 F. 3 d at 1 4 5.

A c c or di n gl y, w e c o n cl u d e t h at it w o ul d

b e i n e q uit a bl e t o gr a nt G L M r eli ef at t hi s b el at e d st a g e, a n d t h at t h e a p p e al i s
t h er ef or e m o ot. 1
C o n cl u si o n
W e h a v e c o n si d er e d G L M’ s r e m ai ni n g ar g u m e nt s a n d fi n d t h e m t o b e
m eritl e s s.

A s a r e s ult , w e DI S MI S S t hi s a p p e al a s m o ot.
F O R T H E C O U R T:
C at h eri n e O ’H a g a n W olf e, Cl er k of C o urt

1

W hil e G L M al s o s e e k s t h e di s cl o s ur e of t h e i d e ntiti e s of cr e dit or s t h at r e c ei v e d p a y m e nt of
pr e p etiti o n d e bt s, t h e p o s si bilit y t h at w e c o ul d s u p pl y G L M wit h t h at r eli ef wit h o ut u p s etti n g
Wi n d str e a m’ s pl a n of r e or g a ni z ati o n i s n ot a r e a s o n t o all o w t hi s a p p e al t o g o f or w ar d. G L M
h a s n o c o g ni z a bl e i nt er e st i n r e c ei vi n g t h o s e di s cl o s ur e s if it l a c k s t h e a bilit y t o p arl a y t h e m i nt o
a p o s si bl e fi n a n ci al r e c o v er y. See C oll. St a n d ar d M a g . v. St u de nt Ass’ n of t he St ate U ni v. of N. Y. , 6 1 0
F. 3 d 3 3, 3 5 ( 2 d Cir. 2 0 1 0) ( n oti n g t h at t h e “[t] h e r e al v al u e of t h e j u di ci al pr o n o u n c e m e nt . . . i s i n
t h e s ettli n g of s o m e di s p ut e w hi c h aff e ct s t h e b e h a vi or of t h e d ef e n d a nt t o w ar d s t h e pl ai ntiff ”
(i nt er n al q u ot ati o n m ar k s a n d e m p h a si s o mitt e d)).

8a

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

U NI T E D S T A T E S DI S T RI C T C O U R T
S O U T H E R N DI S T RI C T O F N E W Y O R K
---------------------------------------------------------------------- x
I n r e:
WI N D S T R E A M H O L DI N G S I N C., et al. ,
D e bt ors .
---------------------------------------------------------------------- x
G L M D F W, I n c.,
A p p ell a nt ,
- a g ai nst WI N D S T R E A M H O L DI N G S I N C., et al. ,
A p p ell e es.
---------------------------------------------------------------------- x
A p p e ar a n c es :
D a v or R u k a vi n a
M u ns c h H ar dt K o pf & H arr, P. C.
D all as, T e x as
C o u ns el f or A p p ell a nt
St e p h e n E. H essl er
M ar k Ki es elst ei n
Kir kl a n d & Ellis L L P
Kir kl a n d & Ellis I nt er n ati o n al L L P
N e w Y or k, N e w Y or k
J a m es H. M. S pr a yr e g e n
R oss M. K w ast e ni et
Br a d W eil a n d
Kir kl a n d & Ellis L L P
Kir kl a n d & Ellis I nt er n ati o n al L L P
C o u ns el f or D e bt ors -A p p ell e es
C hi c a g o, Illi n ois

9a

P a g e 1 of 2 9

O PI NI O N A N D O R D E R
N o. 1 9 -C V -4 8 5 4 ( C S)

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 2 of 2 9

S ei b el, J.
B ef or e t h e C o urt is t h e a p p e al of A p p ell a nt G L M D F W, I n c. ( “ G L M ”) fr o m t h e
B a n kr u pt c y C o urt’s A pril 2 2, 2 0 1 9 Fi n al Or d er A ut h ori zi n g t h e D e bt ors t o P a y C ert ai n
Pr e p etiti o n Cl ai ms of (I) Criti c al V e n d ors, (II) Li e n Cl ai m a nts, a n d (III) S e cti o n 5 0 3( b)( 9)
Cl ai m a nts i n t h e Or di n ar y C o urs e of B usi n ess o n a P ost p etiti o n B asis , ( B a n kr. D o c. 3 7 7 ( “ Fi n al
Or d er ”)).
I.

1

F or t h e f oll o wi n g r e as o ns, t h e B a n kr u pt c y C o urt’s or d er is A F FI R M E D .

B A C K G R O U N D
D e bt ors -A p p ell e es Wi n dstr e a m H ol di n gs, I n c., et al. ( “ D e bt ors ”) ar e pr o vi d ers of

“ a d v a n c e d n et w or k c o m m u ni c ati o ns a n d t e c h n ol o g y s ol uti o ns f or b usi n ess es a cr oss t h e U nit e d
St at es ”; “ off er br o a d b a n d, e nt ert ai n m e nt a n d s e c urit y s ol uti o ns t o c o ns u m ers a n d s m all
b usi n ess es pri m aril y i n r ur al ar e as i n 1 8 st at es ”; a n d “s u p pl y c or e tr a ns p ort s ol uti o ns o n a l o c al
a n d l o n g-h a ul fi b er n et w or k s p a n ni ng a p pr o xi m at el y 1 5 0, 0 0 0 mil es. ” ( B a n kr. D o c. 2 ¶ 5.) G L M
“ pr o vi d e d w ast e m a n a g e m e nt, h a uli n g, a n d r e c y cli n g br o k er a g e a n d a d vis or y s er vi c es” t o
D e bt ors, a n d is a pr e p etiti o n cr e dit or of D e bt ors “ wit h a n u ns e c ur e d cl ai m f or al m ost $ 2
milli o n. ” (D o c. 8 ( “ G L M’s M e m. ”) at 5.) G L M pr o vi d e d s er vi c es t o D e bt ors “ p urs u a nt t o a n
e x e c ut or y c o ntr a ct u n d er w hi c h it w o ul d h a v e b e e n o bli g at e d t o c o nti n u e t o p erf or m [ aft er
D e bt ors’ b a n kr u pt c y fili n g] p e n di n g t h e D e bt ors’ d e cisi o n t o ass u m e or r ej e ct ( or G L M’s
o bt ai ni n g r eli ef fr o m t h e B a n kr u pt c y C o urt). ” ( D o c. 9 ( “ D e bt ors’ M e m. ”) at 2.)
O n F e br u ar y 2 5, 2 0 1 9, D e bt ors fil e d v ol u nt ar y p etiti o ns f or r eli ef u n d er c h a pt er 1 1 of t h e
U. S. B a n kr u pt c y C o d e (t h e “ B a n kr u pt c y C o d e ” or t h e “ C o d e ”) . ( B a n kr. D o c. 1.) Aft er fili n g
t h eir p etiti o ns, D e bt ors “ c o nti n u e[ d] t o o p er at e t h eir b usi n ess a n d m a n a g e t h eir pr o p ert y as
1

R ef er e n c es t o “ B a n kr. D o c. ” r ef er t o d o c u m e nts fil e d o n t h e d o c k et i n t h e u n d erl yi n g
pr o c e e di n g i n t h e B a n kr u pt c y C o urt f or t h e S o ut h er n Distri ct of N e w Y or k u n d er d o c k et n u m b er
1 9 -2 2 3 1 2. R ef er e n c es t o “ D o c. ” ar e t o d o c u m e nts fil e d o n t his C o urt’s d o c k et .

10a

2

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 3 of 2 9

d e bt ors i n p oss essi o n p urs u a nt t o s e cti o ns 1 1 0 7( a) a n d 1 1 0 8 of t h e B a n kr u pt c y C o d e. ” ( B a n kr.
D o c. 2 ¶ 7 .) T h e s a m e d a y t h at D e bt ors fil e d t h eir C h a pt er 1 1 p etiti o ns, t h e y fil e d a m oti o n f or
“ E ntr y of I nt eri m a n d Fi n al Or d ers A ut h ori zi n g t h e D e bt ors t o P a y C ert ai n Pr e p etiti o n Cl ai ms of
(I) Criti c al V e n d ors, (II) Li e n Cl ai m a nts, a n d (III) S e cti o n 5 0 3( b)( 9) Cl ai m a nts i n t h e Or di n ar y
C o urs e of B usi n ess o n a P ost p etiti o n B asis. ” ( B a n kr. D o c. 1 6 ( “ V e n d or M oti o n ”).)

I n t h eir

m oti o n, D e bt ors n ot e d t h at t h e y “i d e ntifi e d a p pr o xi m at el y 2 6 3 v e n d ors as Criti c al V e n d ors ” a n d
“ b eli e v e[ d] t h e y o w e d t h e Criti c a l V e n d ors a p pr o xi m at el y $ 8 0 milli o n ,” w hi c h w as
a p pr o xi m at el y t w e nt y p er c e nt of D e bt ors’ o utst a n di n g a c c o u nts p a y a bl e. (I d. ¶ ¶ 1 4 -1 5.) D e bt ors
i d e ntifi e d t h e criti c al v e n d ors b y
r e vi e wi n g a n d a n al y zi n g t h eir b o o ks a n d r e c or ds, c o ns ulti n g o p er ati o ns m a n a g ers
a n d p ur c h asi n g p ers o n n el, r e vi e wi n g c o ntr a cts a n d s u p pl y a gr e e m e nts, a n d
a n al y zi n g a p pli c a bl e l a w, r e g ul ati o ns, a n d hist ori c al pr a cti c e t o i d e ntif y c ert ai n
criti c al b usi n ess r el ati o ns hi ps a n d s u p pli ers of g o o ds a n d s er vi c es – t h e l oss of
w hi c h w o ul d i m m e di at el y a n d irr e p ar a bl y h ar m t h eir b usi n ess es, b y, a m o n g ot h er
t hi n gs, s hri n ki n g t h eir m ar k et sh ar e, r e d u ci n g e nt er pris e v al u e, a n d ulti m at el y
i m p airi n g t h e D e bt ors’ vi a bilit y as a g oi n g -c o n c er n.
(I d. ¶ 1 3.) D e bt ors a d d e d t h at i n d et er mi ni n g w hi c h v e n d ors w er e criti c al, t h e y s p e cifi c all y
a ns w er e d t e n q u esti o ns :
• w h et h er c ert ai n s p e cifi c ati o ns or c o ntr a ct r e q uir e m e nts pr e v e nt, dir e ctl y or
i n dir e ctl y, t h e D e bt ors fr o m o bt ai ni n g g o o ds or s er vi c es fr o m a lt er n ati v e s o ur c es;
• w h et h er a v e n d or is a s ol e-s o ur c e, li mit e d-s o ur c e, or hi g h -v ol u m e s u p pli er of
g o o ds or s er vi c es criti c al t o t h e D e bt ors’ b usi n ess o p er ati o ns;
• w h et h er a n a gr e e m e nt e xists b y w hi c h t h e D e bt ors c o ul d c o m p el a v e n d or t o
c o nti n u e p erf or mi n g o n pr e p etiti o n t er ms;
• w h et h er alt er n ati v e v e n d ors ar e a v ail a bl e t h at c a n pr o vi d e r e q uisit e v ol u m es of
si mil ar g o o ds or s er vi c es o n e q u al ( or b ett er) t er ms a n d, if s o, w h et h er t h e D e bt ors
w o ul d b e a bl e t o c o nti n u e o p er ati n g w hil e tr a nsiti o ni n g b usi n ess t h er et o;
• t h e d e gr e e t o w hi c h r e pl a c e m e nt c osts (i n cl u di n g, pri ci n g, tr a nsiti o n e x p e ns es,
pr of essi o n al f e es, a n d l ost s al es or f ut ur e r e v e n u e) e x c e e d t h e a m o u nt of a
v e n d or’s pr e p etiti o n cl ai m;

11a

3

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 4 of 2 9

• w h et h er t h e D e bt ors’ i n a bilit y t o p a y all or p art of t h e v e n d or’s pr e p etiti o n cl ai m
c o ul d tri g g er fi n a n ci al distr ess f or t h e a p pli c a bl e v e n d or;
• t h e li k eli h o o d t h at a t e m p or ar y br e a k i n t h e v e n d or’s r el ati o ns hi p wit h t h e
D e bt ors c o ul d b e r e m e di e d t hr o u g h us e of t h e t o ols a v ail a bl e i n t h es e c h a pt er 1 1
c as es ;
• w h et h er f ail ur e t o p a y all or p art of a p arti c ul ar v e n d or’s cl ai m c o ul d c a us e t h e
v e n d or t o h ol d g o o ds o w n e d b y t h e D e bt ors, or r ef us e t o s hi p i n v e nt or y or t o
pr o vi d e criti c al s er vi c es o n a p ost p etiti o n b asis;
• t h e l o c ati o n a n d n ati o n alit y of t h e v e n d or; a n d
• w h et h er f ail ur e t o p a y a p arti c ul ar v e n d or c o ul d r es ult i n c o ntr a cti o n of tr a d e
t er ms as a m att er of a p pli c a bl e n o n -b a n kr u pt c y l a w or r e g ul ati o n.
(I d.) D e bt ors e x pl ai n e d t h at “[ a] n y m at eri al i nt err u pti o n i n t h e pr o visi o n of t h e Criti c al V e n d or
Pr o d u cts a n d S er vi c es – h o w e v er bri ef – w o ul d disr u pt t h e D e bt ors’ o p er ati o ns a n d c o ul d c a us e
irr e p ar a bl e h ar m t o t h e D e bt ors’ b usi n ess es, g o o d will, e m pl o y e es, c ust o m er b as e, a n d m ar k et
s h ar e, ” w hi c h “ w o ul d li k el y f ar o ut w ei g h t h e c ost of p a y m e nt of t h e Criti c al V e n d or Cl ai ms. ”
(I d. ¶ 1 6.)
D e bt ors als o esti m at e d t h at t h e y o w e d “ a p pr o xi m at el y $ 9 1 milli o n . . . t o Li e n
Cl ai m a nts ,” ( id. ¶ 2 0) , a n d “ o w e d a p pr o xi m at el y $ 1 3 milli o n o n a c c o u nt of t h e 5 0 3( b)( 9)
Cl ai ms ,” ( id. ¶ 2 3) .2 T h e V e n d or M oti o n di d n ot i d e ntif y D e bt ors’ c riti c al v e n d ors, lie n
cl ai m a nts, or 5 0 3( b)( 9) cl ai m a nts , b ut it is u n dis p ut e d t h at G L M di d n ot f all u n d er a n y of t h e s e
c at e g ori es.
T h e V e n d or M oti o n i n cl u d e d a pr o p os e d i nt eri m or d er pr o vi di n g t h at
T h e D e bt ors s h all m ai nt ai n a m atri x s u m m ari zi n g a m o u nts p ai d o n a c c o u nt of t h e
Criti c al V e n d or Cl ai ms s u bj e ct t o t h e t er ms of t his I nt eri m Or d er, i n cl u di n g t h e
2

S e cti o n 5 0 3( b)( 9) pr o vi d es t h at d e bt ors i n C h a pt er 1 1 pr o c e e di n gs m a y, “[ a] ft er n oti c e
a n d a h e ari n g, ” p a y o ut e x p e ns es i n cl u di n g “ t h e v al u e of a n y g o o ds r e c ei v e d b y t h e d e bt or wit hi n
2 0 d a ys b ef or e t h e d at e of c o m m e n c e m e nt of a c as e u n d er t his titl e i n w hi c h t h e g o o ds h a v e b e e n
s ol d t o t h e d e bt or i n t h e or di n ar y c o urs e of s u c h d e bt or’s b usi n ess. ” 1 1 U. S. C. § 5 0 3( b)( 9).

12a

4

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 5 of 2 9

f oll o wi n g i nf or m ati o n: ( a) t h e n a m e of t h e Criti c al V e n d or p ai d; ( b) t h e a m o u nt
p ai d t o e a c h Criti c al V e n d or ( e a c h a “ P a y m e nt ”); ( c) t h e t ot al a m o u nt p ai d t o t h e
Criti c al V e n d or t o d at e; ( d) t h e D e bt or or D e bt ors w h o m a d e t h e P a y m e nt; ( e) t h e
d at e of t h e P a y m e nt; a n d (f) t h e p ur p os e of t h e P a y m e nt. T his m atri x will b e
pr o vi d e d e v er y w e e k t o t h e U. S. Tr ust e e a n d a n y st at ut or y c o m mitt e e of cr e dit ors
a p p oi nt e d i n t h es e c h a pt er 1 1 c as es. T h e D e bt ors s h all pr o vi d e t h e U. S. Tr ust e e,
a n y st at ut or y c o m mitt e e of cr e dit ors, a n d t o t h e C o urt f or a n i n c a m er a r e vi e w,
wit h a c o m pl et e list of t h e D e bt ors’ Criti c al V e n d ors.
(I d. E x. A ¶ 4.)
O n F e br u ar y 2 8, 2 0 1 9, t h e B a n kr u pt c y C o urt e nt er e d a n “I nt eri m Or d er ” gr a nti n g t h e
V e n d or M oti o n o n a n i nt eri m b asis a n d s c h e d ul e d a fi n al h e ari n g o n t h e m oti o n as w ell as a d at e
b y w hi c h cr e dit ors c o ul d o bj e ct. ( D o c. 6 1 ( “I nt eri m Or d er ”).) T h e I nt eri m Or d er r e q uir e d
D e bt ors t o pr o vi d e t o t h e U. S. Tr ust e e a n d c o m mitt e e of cr e dit ors, o n a w e e kl y b asis, t h e
“ m atri x ” t h e y d es cri b e d i n t h eir m oti o n . (I d. ¶ 4.) D e bt ors w er e al s o r e q uir e d t o pr o vi d e t h eir
e ntir e criti c a l-v e n d or s list t o t h e U .S . Tr ust e e , t h e c o m mitt e e of cr e dit ors, a n d t h e B a n kr u pt c y
C o urt f or i n c a m er a r e vi e w. (I d.)
O n M ar c h 2 8, 2 0 1 9, G L M o bj e ct e d t o t h e I nt eri m Or d er o n t hr e e gr o u n ds:
(i) t h at it w as f or t h e B a n kr u pt c y C o urt t o d e ci d e w h o w as a criti c al v e n d or, li e n
cl ai m a nt, or 5 0 3( b)( 9) cl ai m a nt, a n d n ot t h e D e bt ors; (ii) t h at t h e B a n kr u pt c y
C o d e r e q uir e d t h e dis cl os ur e of t h e i d e ntit y of t h e pr e p etiti o n cr e dit ors b ei n g p ai d
a n d t h e a m o u nts b ei n g p ai d, a n d t h at n o gr o u n ds t o s e al t his i nf or m ati o n e xist e d;
a n d (iii) t h at t h e B a n kr u pt c y C o urt eit h er f ail e d t o i m p os e a n y st a n d ar d, or
i d e ntifi e d a n i m p er missi bl e st a n d ar d, o n w h at f a cts a n d cir c u mst a n c es q u alifi e d a
cr e dit or t o b e a criti c al v e n d or.
( G L M’s M e m. at 5 -6; s e e B a n kr. D o c. 2 0 4.) N o ot h er p art y i n i nt er est o bj e ct e d t o t h e V e n d or
M oti o n.

( D e bt ors’ M e m. at 7.) In r es p o ns e t o G L M’s o bj e cti o ns , D e bt ors fil e d a r e pl y i n

s u p p ort of t h eir m oti o n . ( B a n kr. D o c. 2 9 1.)

13a

5

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 6 of 2 9

T h e B a n kr u pt c y C o urt h el d a fi n al h e ari n g o n t h e V e n d or M oti o n A pril 1 6, 2 0 1 9. ( D o c.
3 ( “ H e ari n g Tr. ”).)

3

At t h e h e ari n g, t h e B a n kr u pt c y C o urt h e ar d t h e t esti m o n y of Ni c k Gr ossi,

w h o pr o vi d e d c o ns ult a nt s er vi c es t o D e bt ors “ t o e ns ur e a s m o ot h tr a nsiti o n i nt o C h a pt er 1 1. ”
(I d. at 7 2: 1 -3.) Gr ossi t estifi e d t h at h e a n d his t e a m “ v ali d at e d t h e [ D e bt ors’] ass erti o n of t h eir
criti c al v e n d or list. ” (I d. at 7 5: 2 -3.) T h e y di d s o b y, a m o n g ot h er t hi n gs, r e vi e wi n g D e bt ors’
fi n a n ci al d o c u m e nts a n d s p e a ki n g wit h D e bt ors’ e m pl o y e es, (i d. at 7 5: 1 7 -7 6: 2 3), t o a ns w er t h e
f oll o wi n g q u esti o ns a b o ut e a c h v e n d or list e d:
[I]f t h at v e n d or w er e t o c e as e pr o vi di n g s er vi c e or t o st o p s hi p pi n g pr o d u ct, w o ul d
t h at c a us e disr u pti o n t o t h e b usi n ess a n d w o ul d t h at disr u pti o n c a us e irr e p ar a bl e
h ar m[ ?] C o ul d t h at v e n d or b e r es o ur c e d ? Is t h er e a n alt er n ati v e w h er e w e c o ul d
g o o ut a n d fi nd a n alt er n ati v e f or t h at v e n d or ? T h e q u esti o ns t h at w e h a d t o as k
o urs el v es f or v e n d ors w h o pr o vi d e pr o d u ct a n d pr o vi d e a s er vi c e, h o w s p e cifi c is
t his ? Is it s o m et hi n g t h at h as b e e n c ertifi e d, a n d it’s a l e n gt h y c ertifi c ati o n
pr o c ess t o g et t h e e q ui p m e nt ? . . . C a n t h e y disr u pt t h e b usi n ess a n d c a n w e
r es o ur c e t his ?
(I d. at 7 7: 3 -1 6 .) Gr ossi t estifi e d t h at h e h a d us e d t his “r o b ust ” pr o c ess “ m a n y ti m es ” i n t h e p ast
t o d et er mi n e a d e bt or’s criti c al v e n d ors. (I d. at 7 7: 2 2 -2 4.) B ut Gr ossi n ot e d t h at i d e ntifi c ati o n of
t h e criti c al v e n d ors w a s j ust t he st art of t h e pr o c ess, a n d h e a n d his t e a m w o ul d m e et “ e v er y d a y ”
t o d et er mi n e w hi c h of t h e criti c al v e n d ors a ct u all y n e e d e d t o b e p ai d. (I d. at 7 8: 5 -2 5.) H e
t estifi e d t h at usi n g t his “fl e xi bl[ e] ” a p pr o a c h w as n e c ess ar y t o e ns ur e t h at D e bt ors c o ul d
c o nti n u e t o o p er at e t h eir b usi n ess a n d d e al wit h criti c al v e n d ors – i n cl u di n g “irr ati o n al ” v e n d ors
or t h os e t h at s ee k “t o d o h ar m t o [ D e bt ors]” – w hi c h w as p ar a m o u nt t o D e bt ors’ s u c c essf ul
r e or g a ni z ati o n. (I d. at 7 9: 1 5 -8 0: 1.)

3

D o c. 3 c o nt ai ns G L M’s list of d o c u m e nts fr o m t h e B a n kr u pt c y C o urt d o c k et t o b e
c o nsi d er e d o n a p p e al, as w ell as t h e tr a ns cri pt fr o m t h e A pril 1 6 h e ari n g. All cit ati o ns t o t h e
“ H e ari n g Tr. ” r ef er o nl y t o t h e tr a ns cri pt of t h e h e ari n g, w hi c h is E x hi bit A t o D o c. 3 b e gi n ni n g
at p a g e 4 a n d c o ns e c uti v el y p a gi n at e d fr o m t h er e, st arti n g wit h p a g e “ 1. ”

14a

6

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 7 of 2 9

Gr ossi t estifi e d t h at D e bt ors di d n ot t ell t h e v e n d ors t h at t h e y w er e o n t h e criti c al v e n d or
list, a n d a d d e d t h at i n his t hirt e e n y e ars as a c o ns ult a nt t o d e bt ors i n b a n kr u pt c y, h e h a d n e v er
o n c e “ p u blis h e d a list or arti c ul at e d t o a v e n d or t h at t h e y w er e o n a list. ” (I d. at 8 0: 2 -8.) Gr ossi
e x pl ai n e d t h at “[t] elli n g a v e n d or t h at t h e y’r e o n a list d e pri v es [ D e bt ors] of a n y l e v er a g e t h at
t h e[ y] m a y h a v e i n a n e g oti ati o n wit h t h at v e n d or, n u m b er o n e. N u m b er tw o, if y o u w er e t o
p u blis h t h at list, m y c o n c er n is t h at y o u w o ul d h a v e w h at w as ess e nti all y a r u n o n t h e b a n k. ” (I d.
at 8 0: 8 -1 2.) A n d k e e pi n g t h e list c o nfi d e nti al w as s e e mi n gl y pr o vi n g eff e cti v e, as Gr ossi a n d t h e
D e bt ors d et er mi n e d t h at t h er e w as a “ c riti c al v e n d or b u c k et [ of] $ 8 1 milli o n, ” b ut at t h e ti m e of
t h e h e ari n g, D e bt ors h a d p ai d o ut o nl y $ 6. 7 milli o n of it. (I d. at 7 9: 8 -1 2.)
At t h e h e ari n g, Gr ossi st at e d t h at h e h a d s p o k e n wit h “[ p]r o b a bl y si x ” of t h e v e n d ors o n
t h e criti c al v e n d or list, (H e ari n g Tr. at 8 6: 2 1 -8 7: 1), a n d w h e n G L M’s c o u ns el as k e d, “ W h at ar e
t h e si x [ criti c al v e n d ors] t h at y o u s p o k e t o, t h e n a m es ,” t h e B a n kr u pt c y C o urt s ust ai n e d D e bt ors’
o bj e cti o n , (i d. at 8 7 :5 -1 8 ). G L M st at es t h at t h e B a n kr u pt c y C o urt “r ef us e d t o p er mit q u esti o ni n g
as t o t h e i d e ntit y of t h e pr e p etiti o n cr e dit ors pr o p os e d t o b e p ai d, a n d n o e vi d e n c e o n t h at p oi nt
w as off er e d. ” ( G L M’s M e m. at 6.) Aft er its r uli n g, t h e B a n kr u pt c y C o urt a d d e d, “It’s o b vi o us
t o m e t h at s o m e o n e w h o w a nts t o b e a criti c al v e n d or is tr yi n g t o h ar m t his c o m p a n y b y g etti n g it
t o dis cl os e i nf or m ati o n t h at is d etri m e nt al t o t h e c o m p a n y a n d of n o us e w h ats o e v er t o
[ G L M, . . . [ w]h o h as t a k e n a str at e g y t o vi ol at e t h e a ut o m ati c st a y a n d c ut its elf off fr o m t h e
p ot e nti al of h a vi n g its e x e c ut or y c o ntr a ct b ei n g ass u m e d a n d its d ef a ults c ur e d. ” (H e ari n g Tr. at
8 7 : 2 1-8 8 : 4.) T h e B a n kr u pt c y C o urt l at er st at e d t h at “t h er e is a n e vi d e nti ar y r e c or d h er e, ” w hi c h
“s h o ws t h e pr o c ess t h at t h e D e bt ors g o t hr o u g h wit h s u p er visi o n b y t h e cr e di t ors’ c o m mitt e e,
w h o d o es n ot h a v e a p ar o c hi al a x e t o gri n d li k e i n di vi d u al v e n d ors d o. ” (I d. at 1 0 8 : 1 0-1 3 .)

15a

7

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 8 of 2 9

T h e B a n kr u pt c y C o urt als o n ot e d t h at t h e t e n q u esti o n s t h at D e bt ors s ai d t h at t h e y
a ns w er e d i n cr e ati n g t h eir list of criti c al v e n d ors, ( V e n do r M oti o n ¶ 1 3), w er e
t h e v er y q u esti o ns t h at I st art e d as ki n g of D e bt ors t e n y e ars a g o, a n d t h at’s h o w
t his pr o c ess g ot d e v el o p e d. T h at w as fr o m bitt er e x p eri e n c e i n pr a cti c e, a n d i n
e arli er c as es, w h er e c as es lit er all y di e d b e c a us e j u d g es di d n ’t b eli e v e t h e y h a d t his
a ut h orit y, n ot wit hst a n di n g S e cti o n 3 6 3( b), w hi c h w as p erf e ctl y cl e ar t o J u d g e
E ast er br o o k, w h o cit e d 3 6 3( b) i n [I n r e K m art C or p. , 3 5 9 F. 3 d 8 6 6, 8 7 2 ( 7t h Cir.
2 0 0 4) ], b ut l eft it u p t o t h e C o urts t o a d o pt a pr o p er e vi d e nti ar y fr a m e w or k f or
m a ki n g t h e d et er mi n ati o n, w hi c h I b eli e v e e xists h er e.
( H e ari n g Tr. at 1 0 8 : 1 5-2 3 .) T h e B a n kr u pt c y C o urt a d d e d t h at, u n d er § 3 6 3( b) , it c o ul d p er mit
D e bt ors “ t o s p e n d m o n e y t o pr o vi d e a n et b e n efit t o t h eir est at e i n t h eir b usi n ess j u d g m e nt, as
r e vi e w e d b y t h e C o urt ,” t o e ns ur e t h at t h e pr o c ess “is s uffi ci e nt ” a n d “ pr ot e ct[s] t h e D e bt or[s’]
b usi n ess f or all c o nstit u e nts . ” (I d. at 1 0 9 : 1 1-1 7 .) T h e B a n kr u pt c y C o urt st at e d t h at it h a d
u n d ert a k e n t h at a n al ysis , (s e e i d. at 1 0 8: 1 5 -1 0 9: 3), a n d c h astis e d G L M, st ati n g, “ T his is a
p ar o c hi al n arr o w o bj e cti o n, c o u c h e d as if it’s b ei n g br o u g ht o n b e h alf of all v e n d ors, a n d it j ust
is n’t,” (id . at 1 0 9 : 3-5 ). T h e B a n kr u pt c y C o urt d e ni e d G L M’s o bj e cti o n , gr a nt e d D e bt ors’
m oti o n , a n d c o n cl u d e d as f oll o ws:
B as e d o n t h e e vi d e nti ar y r e c or d b ef or e m e, t h e pr o c ess t h at t h e D e bt ors h a v e
a d o pt e d h er e, w hi c h h as b e e n a d o pt e d i n n u m er o us c as es o v er t h e l ast y e ars at
l e ast, a n d is b ei n g i m pl e m e nt e d h er e b y s o p histi c at e d p arti es w h o u n d erst a n d t h e
l e g al a n d b usi n ess iss u es cl earl y s u p p orts t h e d et er mi n ati o n t h at I a m m a ki n g t h at
t h e fl e xi bilit y t h at t h e D e bt ors h a v e t o m a k e t h es e p a y m e nts is criti c al t o t h eir
o n g oi n g o p er ati o ns a n d s u c c ess, i n a c as e w h er e t h e y h a v e a r el ati v el y n arr o w
b u d g et, w h er e c as h m a n a g e m e nt is i m p ort a nt , l e a vi n g t h e m t h eir j u d g m e nt, as
o v ers e e n b y t h e offi ci al c o m mitt e e of u ns e c ur e d cr e dit ors, t o m a k e p a y m e nts o nl y
w h er e a bs ol ut el y n e e d e d, a n d t o pr es er v e t h eir l e v er a g e i n d oi n g s o, s o t h at t h eir
i d e ntifi c ati o n of w h o is criti c al d o es n ot b e c o m e p u bli c, t o e ns ur e [t h er e w as n o]
i m m e di at e r u n o n t h e b a n k is n ot o nl y a ut h ori z e d, b ut a pr o p er e x er cis e of
j u d g m e nt h er e.

16a

8

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 9 of 2 9

(I d. at 1 0 9: 1 9 -1 1 0: 1 6.) 4
O n A pril 2 2, 2 0 1 9, t h e B a n kr u pt c y C o urt e nt er e d t h e Fi n al Or d er, i n w hi c h it “ a ut h ori z e d,
b ut [ di d] n ot dir e ct[] ” D e bt ors,
i n t h eir s ol e dis cr eti o n, t o c o nti n u e t h eir pr e p etiti o n b usi n ess o p er ati o ns, p oli ci es,
a n d pr o gr a ms a n d p a y a n y a c cr u e d b ut u n p ai d pr e p etiti o n V e n d or cl ai ms o n a
p ost p etiti o n b asis i n t h e or di n ar y c o urs e of b usi n ess or as m a y b e n e c ess ar y t o
s e c ur e a v e n d or’s a gr e e m e nt t o c o nti n u e b usi n ess wit h t h e D e bt ors o n C ust o m ar y
Tr a d e T er ms, u p t o t h e a m o u nt s et f ort h f or e a c h c at e g or y of V e n d or Cl ai ms s et
f ort h i n t h e M oti o n.
( Fi n al Or d er ¶ 2.) 5 T h e B a n kr u pt c y C o urt st at e d t h at t h e r eli ef gr a nt e d w o ul d “ pr o vi d e a m at eri al
n et b e n efit t o t h e D e bt ors’ est at es a n d cr e dit ors aft er t a ki n g i nt o a c c o u nt t h e B a n kr u pt c y C o d e’s
pri orit y s c h e m e. ” (I d. at 2.) A d diti o n all y, D e bt ors w er e r e q uir e d t o u p d at e o n a w e e kl y b asis t h e
m atri x of p a y m e nts t h e y w er e r e q uir e d t o pr e p ar e u n d er t h e I nt eri m Or d er a n d pr o vi d e it t o t h e
U. S. Tr ust e e a n d t h e Offi ci al C o m mitt e e of U ns e c ur e d Cr e dit ors. (I d. ¶ 3.) If D e bt ors wis h e d t o
m a k e a criti c al v e n d or p a y m e nt “ m at eri all y i n c o nsist e nt wit h t h e pr oj e ct e d criti c al v e n d or
p a y m e nts s et f ort h o n t h e v e n d or m atri x pr o vi d e d t o t h e C o m mitt e e, ” t h e y h a d t o c o ns ult t h e
C o m mitt e e’s c o u ns el r e g ar di n g t h e pr o p os e d p a y m e nt a n d gi v e t hr e e b usi n ess d a ys’ n oti c e i n
a d v a n c e of t h e p a y m e nt. (I d ¶ 4.) 6 D e bt ors w er e f urt h er r e q uir e d t o pr o vi d e t h e f ull list of
criti c al v e n d ors t o t h e U. S. Tr ust e e, t h e Offi ci al C o m mitt e e of U ns e c ur e d Cr e dit ors ’ a d vis ors ,
a n d t h e B a n kr u pt c y C o urt f or i n c a m er a r e vi e w “ as s o o n as r e as o n a bl y pr a cti c a bl e. ” (I d. ¶ 3. )

4

T h e H e ari n g Tr. r efl e cts t h at t h e B a n kr u pt c y C o urt s ai d it w as k e e pi n g t h e list
c o nfi d e nti al “t o e ns ur e a n i m m e di at e r u n o n t h e b a n k, ” b ut t his m ust h a v e b e e n a tr a ns cri pti o n
err or, b e c a us e t h e c o urt w as cl e arl y tr yi n g t o e ns ur e n o s u c h r u n.
5

B y r ef er e n c e b a c k t o t h e V e n d or M oti o n, it w as a p p ar e nt t h at t h e Fi n al Or d er a ut h ori z e d
p a y m e nt n ot of a n y pr e p etiti o n v e n d or cl ai ms, b ut o nl y of t h os e of criti c al v e n d ors, li e n
cl ai m a nts, a n d 5 0 3( b)( 9) cl ai m a nts.
6

If t hr e e d a ys w as n ot pr a cti c a bl e, n oti c e h a d t o b e gi v e n as s o o n as r e as o n a bl y
pr a cti c a bl e.

17a

9

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 1 0 of 2 9

T h e B a n kr u pt c y C o urt st at e d t h at t h e pr o c e d ur es s et f ort h w er e “ c al c ul at e d t o r es ult o nl y i n t h e
p a y m e nt of t h os e cl ai ms t o t h e e xt e nt n e c ess ar y t o t h e o p er ati o n of t h e D e bt ors’ b usi n ess u p o n
a p pr o pri at e t er ms. ” (I d. at 2.)
Als o o n A pril 2 2, 2 0 1 9, t h e B a n kr u pt c y C o urt a ut h ori z e d pr o c e d ur es b y w hi c h D e bt ors
c o ul d r ej e ct or ass u m e e x e c ut or y c o ntr a cts. ( B a n kr. D o c. 3 9 3.) P urs u a nt t o t h os e pr o c e d ur es, o n
M a y 1 5, 2 0 1 9, D e bt ors p etiti o n e d t o r ej e ct t h eir e x e c ut or y c o ntr a ct wit h G L M as of J u n e 1, 2 0 1 9.
( B a n kr. D o c. 5 3 6 at 2; i d. E x. 2.) G L M di d n ot o bj e ct t o D e bt ors ’ p etiti o n , a n d th e B a n kr u pt c y
C o urt a p pr o v e d D e bt ors ’ r ej e cti o n o n J ul y 1 5, 2 0 1 9. ( B a n kr. D o c. 8 0 8 at 2.) A c c or di n gl y,
D e bt ors c urr e ntl y h a v e n o a cti v e v e n d or r el ati o ns hi p wit h G L M.
II.

LE G AL ST A N D A R D
T his C o urt h as j uris di cti o n p urs u a nt t o 2 8 U. S. C. § 1 5 8( a)( 1) t o h e ar a p p e als fr o m fi n al

j u d g m e nts, or d ers, a n d d e cr e es of a b a n kr u pt c y c o urt. A distri ct c o urt r e vi e ws a b a n kr u pt c y
c o urt’s fi n di n gs of f a ct f or cl e ar err or a n d its l e g al c o n cl usi o ns d e n o v o . O v er b a u g h v.
H o us e h ol d B a n k, N. A. (I n r e O v er b a u g h), 5 5 9 F. 3 d 1 2 5, 1 2 9 ( 2 d Cir. 2 0 0 9) (p er c uri a m ).
“ W h e n r e vi e wi n g f or cl e ar err or, [ t h e C o urt] m a y r e v ers e o nl y if [it is] l eft wit h t h e d efi nit e a n d
fir m c o n vi cti o n t h at a mist a k e h as b e e n c o m mitt e d. ” U nit e d St at es v. B ers h c h a ns k y , 7 8 8 F. 3 d
1 0 2, 1 1 0 ( 2 d Cir. 2 0 1 5) (i nt er n al q u ot ati o n m ar ks o mitt e d). “ T h us, if t h e f a ct u al fi n di n gs of t h e
b a n kr u pt c y c o urt ar e pl a usi bl e i n l i g ht of t h e r e c or d vi e w e d i n its e ntir et y, t his C o urt m a y n ot
r e v ers e it e v e n t h o u g h c o n vi n c e d t h at h a d it b e e n sitti n g as t h e tri er of f a ct, it w o ul d h a v e
w ei g h e d t h e e vi d e n c e diff er e ntl y. ” S a v a g e & Ass o cs., P. C. v. Willi a ms C o m m c’ ns (I n r e
T eli g e nt S er v s., I n c.), 3 7 2 B. R. 5 9 4, 5 9 9 ( S. D. N. Y. 2 0 0 7) (i nt er n al q u ot ati o n m ar ks o mitt e d).
“ A n d w h er e t h er e ar e t w o p er missi bl e vi e ws of t h e e vi d e n c e, t h e f a ctfi n d er’s c h oi c e b et w e e n

18a

10

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 1 1 of 2 9

t h e m c a n n ot b e cl e arl y err o n e o us. ” L a ws k y v. Fr o nti er I ns. Gr p., L L C (I n r e Fr o nti er I ns. Gr p.,
I n c.), 5 9 8 B. R. 8 7, 9 6 ( S. D. N. Y. 2 0 1 9) (i nt er n al q u ot ati o n m ar ks o mitt e d).
III.

DI S C U S SI O N
St a n di n g
St a n di n g is a “ t hr es h ol d q u esti o n i n e v er y f e d er al c as e, d et er mi ni n g t h e p o w er of t h e

c o urt t o h e ar t h e s uit. ” M a h o n v. Ti c or Titl e I ns. C o. , 6 8 3 F. 3 d 5 9, 6 2 ( 2 d Cir. 2 0 1 2) (i nt er n al
q u ot ati o n m ar ks o mitt e d). I n a d diti o n t o t h e r e q uir e m e nts i m p os e d b y Arti cl e III of t h e
C o nstit uti o n , a n a p p ell a nt i n a b a n kr u pt c y c as e m ust b e “ a p ers o n dir e ctl y a n d a d v ers el y aff e ct e d
p e c u ni aril y b y t h e c h all e n g e d or d er of t h e b a n kr u pt c y c o urt. ” S u m pt er v. D P H H ol di n gs C or p.
(I n r e D P H H ol di n gs C or p.), 4 6 8 B. R. 6 0 3, 6 1 2 ( S. D. N. Y. 2 0 1 2) (i nt er n al q u ot ati o n m ar ks
o mitt e d) ; i d. ( “ T h e a g gri e v e d p ers o n st a n d ar d r e q uir es t h at a n a p p ell a nt s h o w b ot h i nj ur y i n f a ct
u n d er Arti cl e III, a n d t h at t h e i nj ur y s uff er e d is dir e ct a n d fi n a n ci al. ”) (i nt er n al q u ot ati o n m ar ks
o mitt e d) . T h e “ a g gri e v e d p ers o n ” st a n d ar d f or b a n kr u pt c y st a n di n g “r efl e cts t h e u n d erst a n d a bl e
c o n c er n t h at if a p p ell at e st a n di n g is n ot li mit e d, b a n kr u pt c y li ti g ati o n will b e c o m e mir e d i n
e n dl ess a p p e als br o u g ht b y t h e m yri a d of p arti es w h o ar e i n dir e ctl y aff e ct e d b y e v er y b a n kr u pt c y
c o urt or d er. ” K a br o Ass o cs. o f W est Isli p, L L C v. C ol o n y Hill Ass o cs. (I n r e C ol o n y Hill
Ass o cs. ), 1 1 1 F. 3 d 2 6 9, 2 7 3 ( 2 d Cir. 1 99 7) (i nt er n al q u ot ati o n m ar ks a n d alt er ati o n o mitt e d); s e e
Li c e nsi n g b y P a ol o, I n c. v. Si n atr a (I n r e G u c ci), 1 2 6 F. 3 d 3 8 0, 3 8 8 ( 2 d Cir. 1 9 9 7) ( “T h e
stri n g e n c y of [t h e ‘ a g gri e v e d p ers o n’ st a n d ar d] is r o ot e d i n a c o n c er n t h at fr e el y gr a nti n g o p e ne n d e d a p p e als t o t h os e p ers o ns aff e ct e d b y b a n kr u pt c y c o urt or d ers will s o u n d t h e d e at h k n ell of
t h e or d erl y dis p ositi o n of b a n kr u pt c y m att ers.”). As t h e “ a g gri e v e d p ers o n ” st a n d ar d is m or e
stri n g e nt t h a n t h e c o nstit uti o n al r e q uir e m e nts, I n r e C o m b usti o n E n g’ g, 3 9 1 F. 3 d 1 9 0, 2 1 4 -1 5
( 3 d Cir. 2 0 0 4); s e e I n r e J o h ns-M a n vill e C or p. , 3 4 0 B. R. 4 9, 5 6 ( S. D. N. Y. 2 0 0 6), v a c at e d o n

19a

11

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 1 2 of 2 9

ot h er gr o u n ds , 5 1 7 F. 3 d 5 2 ( 2 d Cir. 2 0 0 8), G L M c a n n ot pr o c e e d wit h t his a p p e al if it c a n n ot
d e m o nstr at e t h at it s uff er e d a dir e ct fi n a n ci al i nj ur y as a r es ult of t h e Fi n al Or d er.
D e bt ors ar g u e t h at G L M d o es n ot h a v e st a n di n g b e c a us e it is “ a pr e p etiti o n u ns e c ur e d
cr e dit or wit h n o a cti v e r el ati o ns hi p wit h t h e D e bt ors, a n d r e v ersi n g or alt eri n g t h e V e n d or
M oti o n w o ul d n ot dir e ctl y or a d v ers el y aff e ct G L M p e c u ni aril y. ” ( D e bt ors’ M e m. at 1 2.)
D e bt ors ar g u e t h at p a y m e nt t o criti c al v e n d ors, li e n cl ai m a nts, a n d 5 0 3( b) (9) cl ai m a nts “ w o ul d
n ot n e g ati v el y aff e ct G L M’s a bilit y t o ulti m at el y s e c ur e p a y m e nt o n its u ns e c ur e d c l ai m u n d er a
c o nfir m e d c h a pt er 1 1 pl a n ” b e c a us e “ Li e n Cl ai ms a n d 5 0 3( b)( 9) Cl ai ms ar e s e ni or t o G L M’s
u ns e c ur e d cl ai m a n d w o ul d t h us b e e ntitl e d t o p a y m e nt pri or t o G L M irr es p e cti v e of ti mi n g, ” a n d
“[ p] a y m e nt of Criti c al V e n d or Cl ai ms, as r e c o g ni z e d b y t h e B a n kr u pt c y C o urt, i n cr e as es a n d
i n d e e d m a xi mi z es t h e v al u e of t h e D e bt ors’ b a n kr u pt c y est at es . ” (I d.) T h e C o urt dis a gr e es t h at
t h es e f a ct ors n e g at e st a n di n g.
G L M is u n dis p ut e dl y o n e of D e bt ors’ u ns e c ur e d cr e dit ors. “ As a g e n er al r ul e, cr e dit ors
h a v e sta n di n g t o a p p e al or d ers of t h e b a n kr u pt c y c o urt dis p osi n g of pr o p ert y of t h e est at e
b e c a us e s u c h or d ers dir e ctl y aff e ct t h e cr e dit ors ’ a bilit y t o r e c ei v e p a y m e nt of t h eir cl ai ms. ”
K a n e v. J o h ns -M a n vill e C or p. (I n r e J o h ns -M a n vill e C or p. ), 8 4 3 F. 2 d 6 3 6, 6 4 2 ( 2 d Cir. 1 9 8 8) ;
s e e Dis h N et w or k C or p. v. D B S D N. A m., I n c. (I n r e D B S D N. A m., I n c.), 6 3 4 F. 3 d 7 9, 8 9 ( 2 d
Cir. 2 0 1 1) (s a m e). I n f a ct, th e S e c o n d Cir c uit i n I n r e D B S D N ort h A m eri c a s ur v e y e d c as es a n d
c o ul d fi n d n o e x a m pl e of a cr e dit or l a c ki n g st a n di n g t o c h all e n g e t h e dis p ositi o n of est at e ass ets.
S e e 6 3 4 F. 3 d at 9 0 -9 1. It m a y b e tr u e as a s u bst a nti v e m att er t h at t h e Fi n al Or d er ulti m at el y
m a k es it m or e li k el y G L M will b e p ai d, b ut as a st a n di n g m att er G L M c orr e ctl y ar g u es t h at its
p e c u ni ar y i nt er est as a n u ns e c ur e d cr e dit or is a d v ers el y aff e ct e d b y t h e p a y m e nt of D e bt or’s
ass ets t o criti c al v e n d ors, li e n cl ai m a nts, a n d 5 0 3( b )( 9) cl ai m a nts . T h at G L M’s i nt er est i n

20a

12

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 1 3 of 2 9

D e bt ors’ ass ets is “ s e v er al r u n gs l o w er o n t h e l a d d er of pri orit y ” t h a n t h e i nt er ests of s u c h
cl ai m a nts d o es n ot m e a n G L M d o es n ot h a v e st a n di n g, as t h e st a n di n g i n q uir y h as “ n e v er
d e m a n d e d m or e t o a c c or d a cr e dit or st a n di n g t h a n t h at it h as a v ali d a n d i m p air e d cl ai m , ” i d. at
9 0, w hi c h D e bt ors d o n ot dis p ut e G L M h as. As G L M is a cr e dit or t h at is c h all e n gi n g t h e
B a n kr u pt c y C o urt’s or d er dis p osi n g of pr o p ert y of t h e est at es , it h as st a n di n g t o bri n g t his
a p p e al.
C riti c al V e n d o rs , Li e n Cl ai m a nts, a n d 5 0 3( b)( 9) Cl ai m a nts
“ A b asi c t e n et of b a n kr u pt c y l a w is t h at all ass ets of t h e d e bt or . . . ar e ass ets of t h e
b a n kr u pt c y est at e t h at m ust b e s c h e d ul e d f or t h e b e n efit of cr e dit ors. ” K u ni c a v. St. J e a n Fi n.,
I n c., 2 3 3 B. R. 4 6, 5 2 ( S. D. N. Y.), or d er a m e n d e d o n d e ni al of r e c o nsi d er ati o n , 6 3 F. S u p p. 2 d
3 4 2 ( S. D. N.Y. 1 9 9 9) . “ Distri b uti o ns of est at e ass ets at t h e t er mi n ati o n of a b usi n ess b a n kr u pt c y
n or m all y t a k e pl a c e t hr o u g h . . . a C h a pt er 1 1 pl a n, . . . g o v er n e d b y pri orit y. ” Cz yz e ws ki v. J e vi c
H ol di n g C or p. , 1 3 7 S. Ct. 9 7 3, 9 8 3 ( 2 0 1 7). “ C h a pt er 1 1 pl a ns pr o vi d e s o m e[] . . . fl e xi bilit y, ”
b ut “[t] h e C o d e ’s pri orit y s yst e m c o nstit ut es a b asi c u n d er pi n ni n g of b usi n ess b a n kr u pt c y l a w. ”
I d. A c c or di n gl y , d e bt ors w h o fil e f or C h a pt er 1 1 b a n kr u pt c y g e n er all y c a n n ot p a y pr e p etiti o n
d e bts p ost p etiti o n u ntil a pl a n g o v er n e d b y pri orit y is c o nfir m e d. T h er e ar e, h o w e v er, e x c e pti o ns
t o t his r ul e. “ C o urts, f or e x a m pl e, h a v e a p pr o v e d ‘first-d a y ’ w a g e or d ers t h at all o w p a y m e nt of
e m pl o y e es ’ pr e p etiti o n w a g es, ‘ criti c al v e n d or ’ or d ers t h at all o w p a y m e nt of ess e nti al s u p pli ers’
pr e p etiti o n i n v oi c es, a n d ‘r oll-u ps ’ t h at all o w l e n d ers w h o c o nti n u e fi n a n ci n g t h e d e bt or t o b e
p ai d first o n t h eir pr e p etiti o n cl ai m . ” Cz yz e ws ki , 1 3 7 S. Ct. at 9 8 5 .
G L M d o es n ot dis p ut e t h at “ c o urts i n t his Distri ct a ut h ori z e t h e p a y m e nt t o t h e ‘criti c al
v e n d or ’ w h e n t h e p a y m e nt is ‘criti c al t o t h e d e bt or’s r e or g a ni z ati o n.’” ( G L M’s M e m. at 1 0
( q u oti n g I n r e Fi n. N e ws N et w or k I n c., 1 3 4 B. R. 7 3 2, 7 3 6 ( B a n kr. S. D. N. Y. 1 9 9 1) .) B ut G L M

21a

13

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 1 4 of 2 9

ar g u es t h at t h e B a n kr u pt c y C o urt err e d b y ( 1) i m p er missi bl y d el e g ati n g a ut h orit y t o D e bt ors t o
d et er mi n e w hi c h v e n d ors w er e criti c al ; ( 2) k e e pi n g t h e list of criti c al v e n d ors, li e n cl ai m a nts, a n d
5 0 3( b)( 9) cl ai m a nts c o nfi d e nti al; ( 3) d e n yi n g G L M a d e q u at e p r o c ess; a n d ( 4) f aili n g t o a p pl y t h e
c orr e ct l e g al st a n d ar d r e g ar di n g criti c al v e n d ors. G L M a c k n o wl e d g es t h at, wit h r es p e ct t o li e n
cl ai m a nts a n d 5 0 3( b)( 9) cl ai m a nts, a “ d e bt or d o es n ot dis cri mi n at e a g ai nst u ns e c ur e d cr e dit ors if
it p a ys t h es e cl ai ms first, a n d i n f ull.” ( G L M’s M e m. at 1 4.) “ Wit h r es p e ct t o li e n cl ai m a nts a n d
5 0 3( b)( 9) cl ai m a nts, t h er ef or e, G L M d o es n ot q u esti o n t h at t h e B a n kr u pt c y C o urt c o ul d
a ut h ori z e t h es e cl ai m a nts t o b e p ai d pri or t o a pl a n. ” (I d.) I nst e a d, “ G L M’s a p p e al r e g ar di n g
t h es e iss u es is li mit e d t o k e e pi n g t h e i d e ntiti es of t h es e cr e dit ors c o nfi d e nti al a n d s e cr et, a n d t o
t h e f a ct t h at t h e B a n kr u pt c y C o urt p er mitt e d t h e D e bt ors t o d e ci d e w hi c h cr e dit ors q u alifi e d,
r at h er t h a n m a ki n g t h at d e cisi o n its elf.” (I d.)
1.

D el e g ati o n of A ut h o rit y

G L M ar g u es t h at “[t] h e m ost s eri o us pr o bl e m wit h t h e Or d er is t h e d el e g ati o n of t h e
j u di ci al f u n cti o n t o t h e D e bt ors, w h er e b y t h e B a n kr u pt c y C o urt h as p er mitt e d t h e D e bt ors t o
d e ci d e q u esti o ns of f a ct, ” i n cl u di n g “ w h o is a criti c al v e n d or , w h o is a li e n cl ai m a nt, a n d w h o is
a 5 0 3( b)( 9) cl ai m a nt . ” (I d. at 1 4 -1 5 .) B ut G L M’s ar g u m e nt i g n or es t h e f a ct t h at D e bt ors
s u b mitt e d a m oti o n t o t h e B a n kr u pt c y C o urt i n w hi c h it e x pl ai n e d h o w it i d e ntifi e d its criti c al
v e n d ors – pr o vi di n g b ot h t he pr o c ess a n d s u bst a nti v e crit eri a c o nsi d er e d i n m a ki n g t h e
d et er mi n ati o n s – a n d pr o vi d e d t o t h e U. S. Tr ust e e a n d Offi ci al C o m mitt e e of U ns e c ur e d
Cr e dit ors t h e m atri x of p a y m e nts t o criti c al v e n d ors , i n cl u di n g t h eir i d e ntiti es a n d i nf or m ati o n o n
t h e p ur p os e of e a c h p a y m e nt. ( V e n d or M oti o n ¶ ¶ 4, 1 3 -1 4.) D e bt or s w er e als o r e q uir e d t o
pr o vi d e t h e U. S. Tr ust e e, Offi ci al C o m mitt e e of U ns e c ur e d Cr e dit or s, a n d t h e B a n kr u pt c y C o urt
w it h t h e f ull list of criti c al v e n d ors. ( Fi n al Or d er ¶ 3 .)

22a

14

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 1 5 of 2 9

T h e B a n kr u pt c y C o urt n ot e d t h at t h e pr o c ess b y w hi c h D e bt ors d et er mi n e d t h eir criti c al
v e n d ors w as b as e d o n “ t h e v er y q u esti o ns ” t h at t h e B a n kr u pt c y C o urt t y pi c all y as k e d d e bt ors ,
t h e a ns w ers t o w hi c h pr o vi d e d t h e “ pr o p er e vi d e nti ar y fr a m e w or k ” f or m a ki n g t h e criti c al
v e n d or d et er mi n ati o n. ( He a ri n g Tr. at 1 0 8.) W hil e t h e B a n kr u pt c y C o urt r eli e d o n D e bt ors’
r e pr es e nt ati o ns t h at t h e y a c c ur at el y a ns w er e d t h os e q u esti o ns o utsi d e of c o urt, s u c h r eli a n c e w as
n ot a n i m p er missi bl e d el e g ati o n of a ut h orit y . I n f a ct, c o urts r e q uir e p a y m e nts t o criti c al v e n d ors
t o b e “ i n t h e s o u n d b usi n ess j u d g m e nt of t h e d e bt or. ” I n r e U nit e d A m., I n c., 3 2 7 B. R. 7 7 6, 7 8 2
( B a n kr. E. D. V a. 2 0 0 5); s e e I n r e I o n os p h er e Cl u bs, I n c., 9 8 B. R. 1 7 4, 1 75 ( B a n kr. S. D. N. Y.
1 9 8 9) ( b ef or e a b a n kr u pt c y c o urt c a n a ut h ori z e a n e x p e n dit ur e of f u n ds o utsi d e of t h e or di n ar y
c o ur s e of b usi n ess, d e bt or m ust “ a rti c ul at e s o m e b usi n ess j ustifi c ati o n”). A n d r eli a n c e o n
D e bt ors’ b usi n ess j u d g m e nt is es p e ci all y a p pr o pri at e h er e c o nsi d eri n g t h e ti m e a n d r es o ur c es it
w o ul d t a k e t o h a v e t h e B a n kr u pt c y C o urt as k, a n d D e bt ors r es p o n d t o, t h os e q u esti o ns f or e a c h
of t h e 2 6 3 v e n d ors i n o p e n c o urt. Cf. I n r e M F Gl o b. H ol di n gs Lt d ., 4 6 6 B. R. 2 3 9, 2 4 2 ( B a n kr.
S. D. N. Y. 2 0 1 2) ( “Est a blis hi n g a n effi ci e nt a n d eff e cti v e pr o c e d ur e [ b y w hi c h d e bt ors c a n r ej e ct
e x e c ut or y c o ntr a cts] will als o r eli e v e t h e C o urt of t h e b ur d e n of h e ari n g n u m er o us m oti o ns
s e e ki n g t h e s a m e r eli ef.”).
C o urt s u p er visi o n of e a c h i n di vi d u al criti c al -v e n d or d esi g n ati o n is n ot o nl y i m pr a cti c al i n
l ar g e b a n kr u pt ci es – i n d e e d, as J u d g e Dr ai n n ot e d, t h e c o m p a n y w o ul d li k el y g o u n d er b ef or e
s u c h h e ari n gs c o ul d o c c ur, ( H e ari n g Tr. 1 0 4 -0 6, 1 0 9) – b ut it w as u n n e c ess ar y h er e , gi v e n t h e
o v ersi g ht of t h e U. S. Tr ust e e a n d t h e cr e dit o rs’ c o m mitt e e of b ot h t h e d esi g n ati o ns a n d t h e
p a y m e nts, a n d t h e a bilit y of t h e B a n kr u pt c y C o urt t o h e ar o bj e cti o ns. P arti c ul arl y w h er e D e bt ors
h a d d esi g n at e d o nl y 2 6 3 v e n d ors o ut of a p pr o xi m at el y 1 6, 0 0 0 , (s e e i d. at 8 2: 1 6 -1 8 ), h a d a n
o utsi d e c o ns ult a nt v ali d at e t h os e c h oi c es, a n d h a d n e g oti at e d s o eff e cti v el y t h at t h at t h e y h a d

23a

15

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 1 6 of 2 9

us e d o nl y a s m all fr a cti o n of t h e all ott e d f u n ds i n t h e w e e ks b et w e e n t h e I nt eri m a n d Fi n al
O r d ers, t h e B a n kr u pt c y C o urt h a d e v er y r e as o n t o b eli e v e th at p er mitti n g D e bt ors t o e x er cis e
t h eir b usi n ess j u d g m e nt – usi n g t h e pr o p er crit eri a a n d wit h a c a p p e d d oll ar a m o u nt – w o ul d
m a xi mi z e est at e ass ets f or t h e b e n efit of D e bt ors a n d t h eir cr e dit ors.
As p oi nt e d o ut b y D e bt ors, b a n kr u pt c y c o urts r o uti n el y rel y o n d e bt ors’ r e pr es e nt ati o ns
a n d b usi n ess j u d g m e nt t o i d e ntif y criti c al v e n d ors. S e e I n r e S y n er g y P h ar m . I n c., N o. 1 8 -1 4 0 1 0
( B a n kr. S. D. N. Y. J a n. 7, 2 0 1 9) , D o c. 1 8 4 ; I n r e S e ars H ol di n gs C or p. , N o. 1 8 -2 3 5 3 8 ( B a n kr.
S. D. N. Y. N o v. 1 6, 2 0 1 8) , D o c. 7 9 3 ; In r e T o ps H ol di n g II C or p. , N o. 1 8 -2 2 2 7 9 ( B a n kr.
S. D. N. Y. M ar. 2 2, 2 0 1 8) , D o c. 1 8 3 ; I n r e A v a y a I n c., N o. 1 7 -1 0 0 8 9 ( B a n kr. S. D. N. Y. F e b. 1 0,
2 0 1 7) , D o c. 1 3 9 ; I n r e S u n E dis o n, I n c., N o. 1 6 -1 0 9 9 2 ( B a n kr. S. D. N. Y. J u n. 8, 2 0 1 6) , D o c. 5 1 5 ;
I n r e R el ati vit y F as hi o n, L L C , N o. 1 5 -1 1 9 8 9 ( B a n kr. S. D. N. Y. A u g. 2 7, 2 0 1 5) , D o c. 3 3 4 ; I n r e
Gr e at Atl . & P a c . T e a C o., I n c., N o. 1 5 -2 3 0 0 7 ( B a n kr. S. D. N. Y. A u g. 1 1, 2 0 1 5) , D o c. 5 0 3 ; I n r e
Gr e at Atl . & P a c . T e a C o., I n c., N o. 1 0 -2 4 5 4 9 ( B a n kr. S. D. N. Y. J a n. 1 2, 2 0 1 1) , D o c. 5 0 4 .
I nst e a d of i d e ntif yi n g a n y pr e c e d e nt s u g g esti n g t h at t his is a n u nl a wf ul d el e g ati o n of a ut h orit y,
G L M cit es t o t hr e e S u pr e m e C o urt c as es t h at ar e e a c h m or e t h a n f ort y y e ars ol d ( a n d t w o of
w hi c h w er e d e ci d e d b ef or e 1 9 5 0), n o n e of w hi c h r el at es t o criti c al -v e n d or d esi g n ati o ns or e v e n
b a n kr u pt c y i n g e n er al . (S e e G L M’s M e m. at 1 9 -2 0 (first citi n g M or g a n v. U nit e d St at es , 2 9 8
U. S. 4 6 8, 4 8 0 -8 1 ( 1 9 3 6); t h e n citi n g U nit e d St at es v. R a d d atz , 4 4 7 U. S. 6 6 7, 6 8 3 ( 1 9 8 0); a n d
t h e n citi n g H oli d a y v. J o h nst o n , 3 1 3 U. S. 3 4 2, 3 5 1 -5 2 ( 1 9 4 1).) A n d t h e b a n kr u pt c y c as es t h at
G L M cit e s – I n r e Li v el y , 2 6 6 B. R. 2 0 9, 2 1 6 ( B a n kr. N. D. O kl a. 1 9 9 8) ; I n r e Str u ct urlit e Pl asti cs
C or p ., 8 6 B. R. 9 2 2, 9 3 2 ( B a n kr. S. D. O hi o 1 9 8 8) ; P e nsi o n B e n efit G u ar. C or p. v. Br a niff
Air w a ys, I n c. (I n r e Br a niff Air w a ys I n c.), 7 0 0 F. 2 d 9 3 5, 9 4 0 ( 5t h Cir. 1 9 8 3) – h a v e n ot hi n g t o
d o wit h criti c al v e n d ors, l et al o n e w h et h er a b a n kr u pt c y c o urt’s d ef er e n c e t o a d e bt or’s

24a

16

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 1 7 of 2 9

r e pr es e nt ati o ns a n d b usi n ess j u d g m e nt r e g ardi n g w hi c h v e n d ors w er e criti c al (wit hi n a c o urt a p pr o v e d fr a m e w or k a n d s u bj e ct t o r e vi e w) w as f o u n d t o b e a n i m p er missi bl e d el e g ati o n of
a ut h orit y.
F or t h e s a m e r e as o ns, G L M’s ar g u m e nt t h at t h e B a n kr u pt c y C o urt i m p er missi bl y
d el e g at e d a ut h orit y t o D e bt ors t o d et er mi n e li e n cl ai m a nts a n d 5 0 3( b)( 9) cl ai m a nts is
u n c o n vi n ci n g.
A c c or di n gl y, G L M’s d el e g ati o n ar g u m e nt is r ej e ct e d.
2.

C o nfi d e nti alit y a n d S e al i n g

G L M n e xt ar g u es t h at t h e B a n kr u pt c y C o urt c o m mitt e d r e v ersi bl e err or b y all o wi n g
D e bt ors t o k e e p s e cr et t h eir list of criti c al v e n d ors, li e n cl ai m a nts, a n d 5 0 3( b)( 9) cl ai m a nts.
S p e cifi c all y, G L M ar g u es t h at u n d er t h e B a n kr u pt c y C o d e, all i nf or m ati o n m ust b e p u bli cl y fil e d
u nl ess it is “ a tr a d e s e cr et or c o nfi d e nti al r es e ar c h, d e v el o p m e nt, or c o m m er ci al i nf or m ati o n. ”
( G L M’s M e m. at 2 4 (i nt er n al q u ot ati o n m ar ks o mitt e d) .) I n d e e d, “ [s]e cti o n 1 0 7( a) of t h e
B a n kr u pt c y C o d e pr o vi d es t h at, wit h c ert ai n li mit ati o ns, all p a p ers ‘fil e d i n a c as e u n d er t his titl e
ar e p u bli c r e c or ds a n d o p e n t o e x a mi n ati o n b y a n e ntit y at r e as o n a bl e ti m es wit h o ut c h ar g e. ’” I n
r e Dit e c h H ol di n g C or p. , N o. 1 9 -1 0 4 1 2, 2 0 1 9 W L 3 2 9 4 6 8 4, at * 9 ( B a n kr. S. D. N. Y. J ul y 1 9,
2 0 1 9) ( q u oti n g 1 1 U. S. C. § 1 0 7( a) ) ( alt er ati o n o mitt e d) ( e m p h asis a d d e d) . B ut t h e list of criti c al
v e n d ors, li e n cl ai m a nts, a n d 5 0 3( b)( 9) cl ai m a nts w as n e v er fil e d i n t h e b a n kr u pt c y a cti o n, a n d
t h us § 1 0 7 w as n e v er tri g g er e d. A n d G L M di d n ot ar g u e or p r o vi d e a ut h orit y t h at a p art y m ust
fil e p a p ers i d e ntif yi n g t h es e c at e g ori es of cr e dit ors i n a b a n kr u pt c y c as e , d es pit e D e bt ors ar g ui n g
t his p oi nt i n t h eir o p p ositi o n bri ef. ( D e bt ors’ M e m. at 2 3 -2 4.) I n d e e d, t h e c as es t h at G L M cit es
r e g ar di ng § 1 0 7 all h a v e t o d o wit h d o c u m e nts t h at w er e a ct u all y fil e d. S e e Vi d e o S oft w ar e
D e al ers Ass’ n v. Ori o n Pi ct ur es C or p (I n r e Ori o n Pi ct ur es C or p. ), 2 1 F. 3 d 2 4 ( 2 d Cir. 1 9 9 4)

25a

17

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 1 8 of 2 9

( p arti es s e e ki n g t o s e al, a m o n g ot h er t hi n gs, li c e nsi n g a gr e e m e nt fil e d wit h b a n kr u pt c y c o urt); I n
r e Dit e c h H ol di n g C or p. , 2 0 1 9 W L 3 2 9 4 6 8 4, at * 9 (p arti es s e e ki n g t o s e al s ettl e m e nt d o c u m e nts
t h at m ust b e fil e d p urs u a nt t o B a n kr u pt c y R ul e 9 0 1 9) ; G eltz er v . A n d ers e n W orl d wi d e, S. C. , N o.
0 5 -C V -3 3 3 9, 2 0 0 7 W L 2 7 3 5 2 6, at * 1 ( S. D. N. Y. J a n. 3 0, 2 0 0 7) (s a m e).
G L M f urt h er ar g u es t h at it c a n fi n d “[ n] o o pi ni o n t h at . . . p er mits a d e bt or t o k e e p t h e
i d e ntit y of ‘ criti c al v e n d ors’ c o nfi d e nti al .” ( G L M’s M e m. at 2 9 .). B ut to s u p p ort t his ar g u m e nt ,
G L M cit es t o In r e I o n os p h er e, i n w hi c h a c o urt all o w e d a d e bt or t o p a y , b ef or e c o nfir mi n g a
pl a n, t h e pr e p etiti o n cl ai ms of its a cti v e e m pl o y e es b ut n ot its stri ki n g e m pl o y e es. S e e 9 8 B. R. at
1 7 4 -7 5 . N ot o nl y d o es t h at c as e a d dr ess a diff er e nt iss u e, b ut t h er e is n o i n di c ati o n t h at t h e
d e bt or or t h e c o urt t h er e s p e cifi c all y i d e ntifi e d a n y of t h e e m pl o y e es t o b e p ai d. G L M t h us r eli es
o n a c as e i n w hi c h t h e c o urt d e ci d e d w hi c h e m pl o y e es t o p a y o n a c at e g ori c al b asis wit h o ut
i d e ntif yi n g a n y of t h e m, as a ut h orit y t h at D e bt ors h er e s h o ul d b e r e q uir e d t o fil e a n d
s u bs e q u e ntl y m o v e t o s e al a list s p e cifi c all y i d e ntif yi n g all of t h eir criti c al v e n d ors. G L M als o
cit es t o a c as e w h er e t h e p arti es fil e d d o c u m e nts i d e ntif yi n g s e v e n criti c al v e n d ors, I n r e C o S er v ,
L L C , 2 7 3 B. R. 4 8 7, 4 9 7 ( B a n kr. N. D. T e x. 2 0 0 2) , b ut t h at a p art y c h os e – i n o n e o ut -of -cir c uit
c as e – t o fil e a d o c u m e nt i d e ntif yi n g its criti c al v e n d ors si m pl y d o es n ot m e a n t h at all d e bt ors ar e
u n d er a n o bli g ati o n t o fil e s u c h d o c u m e nts , l et al o n e t h at a n y s u c h d o c u m e nt c a n n ot b e s e al e d.
T h e c as es G L M cit es si m pl y d o n ot est a blis h t h at d e bt ors ar e r e q uir e d t o fil e p u bli cl y a list
i d e ntif yi n g t h eir criti c al v e n d ors, li e n cl ai m a nts, a n d 5 0 3( b)( 9) cl ai m a nts , n or d o t h e y est a blis h
t h at t h os e lists c a n n ot b e s e al e d. 7

7

G L M’s r eli a n c e o n Ar mstr o n g W orl d I n d ustri es, I n c. v. J a m es A P hilli ps, I n c. (I n r e
J a m es A. P hilli ps, I n c. ), 2 9 B. R. 3 9 1, 3 9 5 ( S. D. N. Y. 1 9 8 3), is si mil arl y u n a v aili n g. I n t h at c as e,
t h e b a n kr u pt c y c o urt a ut h ori z e d a n a c c el er at e d p a y m e nt t o a p ot e nti al li e n or wit h o ut a h e ari n g
a n d wit h o ut pr o vi di n g a n y n oti c e t o t h e ot h er cr e dit ors. I d. at 3 9 2. Ulti m at el y, t h e b a n kr u pt c y

26a

18

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 1 9 of 2 9

D e bt ors , h o w e v er, h a v e pr o vi d e d n u m er o us e x a m pl es w h er e b a n kr u pt c y c o urts h a v e
all o w e d d e bt ors t o n ot fil e s u c h lists or n ot dis cl os e t h e i d e ntiti es of criti c al v e n d ors, li e n
cl ai m a nts, a n d 5 0 3( b)( 9) cl ai m a nts . S e e I n r e A e g e a n M ari n e P etr ol. N et w or k I n c., N o. 1 8 1 3 3 7 4 ( B a n kr. S. D. N. Y. D e c. 6, 2 0 1 8) , D o c. 1 5 0 ¶ 5 ( “M atri x will b e pr o vi d e d o n a bi w e e kl y
b asis ( or as ot h er wis e a gr e e d wit h c o u ns el t o t h e C o m mitt e e) t o t h e pr of essi o n als r et ai n e d b y t h e
C o m mitt e e; pr o vi d e d t h at t h e pr of essi o n als f or t h e C o m mitt e e s h all k e e p t h e S p e cifi e d Tr a d e
Cl ai m a nt M atri x c o nfi d e nti al a n d s h all n ot dis cl os e a n y of t h e i nf or m ati o n i n t h e m atri x t o
a n y o n e, i n cl u di n g, b ut n ot li mit e d t o, a n y m e m b er of t h e C o m mitt e e, wit h o ut t h e pri or writt e n
c o ns e nt of t h e D e bt ors .”) ( e m p h asis i n ori gi n al); I n r e A v a y a I n c., N o. 1 7 -1 0 0 8 9 , D o c. 1 3 9 ¶ 1 5
(“ T h e D e bt ors s h all pr o vi d e s u c h m atri x[] o n a c o nfi d e nti al a n d pr of essi o n als’ -e y es -o nl y b asis []
t o t h e U. S. Tr ust e e, t h e a d vis ors t o t h e C o m mitt e e, t h e a d vis ors t o t h e DI P A g e nt, a n d t h e
a d vis ors t o e a c h of t h e A d H o c Gr o u ps, e v er y t w o w e e ks . . . . ”); I n r e B C B G M a x Azri a Gl o b.
H ol di n gs, L L C , N o. 1 7 -1 0 4 6 6 ( B a n kr. S. D. N. Y. M ar. 2 9, 2 0 1 7) , D o c. 2 3 4 ¶ 3 (“ T h e D e bt ors
c o urt t h er e p er mitt e d a h e ari n g o n w h et h er it s h o ul d v a c at e its a ut h ori z ati o n, b ut aft er t h e
h e ari n g, d e cli n e d t o d o s o. I d. at 3 9 5. O n a p p e al, t h e distri ct c o urt h el d t h at “ s o m e s ort” of
n oti c e m ust “ b e gi v e n t o cr e dit ors of t h e est at e b ef or e a c c el er at e d p a y m e nts t o p ot e nti al li e n ors
ar e a ut h ori z e d , ” a n d t h at cr e dit ors “s ho ul d h a v e a n o p p ort u nit y t o b e h e ar d, h o w e v er s u m m aril y,
b ef or e t h e a c c el er at e d p a y m e nts ar e f or m all y a ut h ori z e d b y a B a n kr u pt c y C o urt . ” I d. at 3 9 5.
T h e c o urt cl arifi e d t h at “[t] h e n oti c e r e q uir e d, h o w e v er, s h o ul d n ot b e p er mitt e d t o u n d er mi n e t h e
c a p a cit y of t h e d e bt or i n p oss essi o n t o a c c o m plis h t h e l e giti m a t e e n ds s o u g ht b y t h e tr a ns a cti o ns
at iss u e. ” I d. T h us, i n t h at c as e, “ t h e o nl y n oti c e r e q uir e d w as a t el e p h o n e c all i nf or mi n g [t h e
cr e dit or] t h at [t h e d e bt or] i nt e n d e d t o s e e k t h e r eli ef i n v ol v e d, a n d a bri ef o p p ort u nit y ( m e as ur e d
i n h o urs r at h er t h a n da ys) t o e x a mi n e a n d v erif y t h e f u n d a m e nt al f a cts all e g e d. ” I d. B e c a us e t h e
b a n kr u pt c y c o urt h el d a h e ari n g, “ h o w e v er s u m m aril y, ” a n d b e c a us e f ail ur e t o pr o vi d e n oti c e
w as h ar ml ess, t h e distri ct c o urt affir m e d t h e b a n kr u pt c y c o urt’s a ut h ori z ati o n of t h e a c c el er at e d
p a y m e nt. I d. at 3 9 5 -3 9 8. H er e, t h e B a n kr u pt c y C o urt pr o vi d e d n oti c e, all o w e d bri efi n g, a n d
h el d a h e ari n g o n t h e criti c al -v e n d or iss u e. T his w as m or e n oti c e t h a n w h at w as pr o vi d e d i n I n
r e J a m es A. P hilli ps, I n c. , a n d i n a n y e v e nt, w as f ar m or e t h a n t h e “s u m m ar[ y] ” n oti c e a n d
h e ari n g t h at t h e c o urt t h er e h el d w as n e c ess ar y. I n d e e d, t h e B a n kr u pt c y C o urt pr o p erl y b al a n c e d
t h e n e e d f or n oti c e a n d a h e ari n g w hil e als o e ns uri n g t h at D e bt ors c o ul d “ a c c o m plis h t h e
l e giti m at e e n ds ” of p a yi n g t h eir criti c al v e n d ors t o e ns ur e t h eir r e h a bilit ati o n. A c c or di n gl y, I n r e
J a m es A. P hilli ps, I n c. , s u p p orts affir mi n g, n ot r e v ersi n g, t h e B a n kr u pt c y C o urt.

27a

19

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 2 0 of 2 9

s h all m ai nt ai n a m atri x of a m o u nts p ai d i n a c c or d a n c e wit h t his Or d er . . . a n d pr o vi d e s u c h
m atri x o n a m o nt hl y b asis t o t h e Offi ci al C o m mitt e e of U ns e c ur e d Cr e dit ors . . . ; pr o vi d e d ,
h o w e v er t h at t h e C o m mitt e e’s pr of essi o n als s h all k e e p t h e Cl ai ms M atri x c o nfi d e nti al a n d s h all
n ot dis cl os e a n y of t h e i nf or m ati o n i n t h e m atri x t o a n y o n e . . . .” ) ( e m p h asis i n ori gi n al) ; I n r e
H a w k er B e e c h cr aft, I n c., N o. 1 2 -1 1 8 7 3 ( B a n kr. S. D. N. Y M a y 3 0, 2 0 1 2) , D o c. 1 7 8 ¶ 6 (“ T h e
D e bt ors s h all m ai nt ai n a m atri x s u m m ari zi n g (i) t h e n a m e of e a c h Criti c al V e n d or . . . p ai d a n d
(ii) t h e a m o u nt p ai d t o e a c h s u c h Criti c al V e n d or . . . . T h e D e bt ors s h all pr o vi d e t his m atri x t o
t h e U nit e d St at es Tr ust e e . . . a n d t h e pr of essi o n als r et ai n e d b y t h e C o m mitt e e o n a w e e kl y b asis,
pr o vi d e d t h at t h e U. S. Tr ust e e a n d t h e C o m mitt e e’s pr of essi o n als s h all k e e p t h e m atri x
c o nfi d e nti al a n d s h all n ot dis cl os e t o a n y o n e . . . t h e n a m es of . . . a n d t h e a m o u nt p ai d t o e a c h
s u c h Criti c al V e n d or . . . .” ) ( e m p h asis i n ori gi n al) .
M or e o v er, e v e n if D e bt ors w er e r e q uir e d t o fil e t h e list, c o urts h a v e h el d t h at r e d a cti n g
t h e n a m es of v e n d ors is a pr o p er e x er cis e of § 1 0 7’s c o m m er ci al i nf or m ati o n e x c e pti o n. S e e,
e. g. , I n r e B or d ers Gr p., I n c., 4 6 2 B. R. 4 2, 4 8 ( B a n kr. S. D. N. Y. 2 0 1 1) ( “T h e [ pr o p erl y] r e d a ct e d
i nf or m ati o n pri m aril y r el at es t o t h e i d e ntiti es of k e y e m pl o y e es a n d v e n d ors . . . .”). S e cti o n 1 0 7
“ pr ot e cts p arti es fr o m t h e r el e as e of i nf or m ati o n t h at c o ul d c a us e t h e m h ar m or gi v e c o m p etit ors
a n u nf air a d v a nt a g e .” T o g ut v. D e uts c h e B a n k A G (I n r e A nt hr a cit e C a pit al, I n c.), 4 9 2 B. R. 1 6 2,
1 7 7 ( B a n kr. S. D. N. Y. 2 0 1 3) (i nt er n al q u ot ati o n m ar ks o mitt e d) ; s e e G o w a n v. W estf or d Ass et
M g mt. L L C (I n r e Dr ei er L L P ), 4 8 5 B. R. 8 2 1, 8 2 3 ( B a n kr. S. D. N. Y. 2 0 1 3) (s a m e). D e bt ors
ar g u e d b el o w , a n d t h e B a n kr u pt c y C o urt f o u n d, t h at r el e asi n g t his i nf or m ati o n p u bli cl y w o ul d
h ar m D e bt ors’ est at e b y r e d u ci n g D e bt ors’ n e g oti ati n g l e v er a g e wit h t h e criti c al v e n d ors a n d
p ossi bl y pr e ci pit ati n g a “r u n o n t h e b a n k ” i n w hi c h t h e y all d e m a n d e d i m me di at e p a y m e nt .
(H e ari n g Tr. at 8 0: 1 0 -1 2 , 1 0 6: 2 5 -1 0 7: 2.) A c c or di n gl y, t h e i nf or m ati o n w o ul d li k el y b e pr o p erl y

28a

20

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 2 1 of 2 9

s e al e d as c o m m er ci al i nf or m ati o n. S e e S e c. I n v’r Pr ot. C or p. v. B er n ar d L. M a d off I n v. S e c.
L L C (I n r e M a d off ), N o. 0 8 -0 1 7 8 9, 2 0 1 1 W L 1 3 7 8 6 0 2, at * 3 ( B a n kr. S. D. N. Y. A pr. 1 2, 2 0 1 1)
( a p pl yi n g § 1 0 7 w h er e p u bli c dis cl os ur e “ c o ul d seri o usl y j e o p ar di z e [ a p art y’s] fi n a n ci al
vi a bilit y ”). 8
A c c or di n gl y, t h e B a n kr u pt c y C o urt di d n ot c o m mit r e v ersi bl e err or , as it w as u n d er n o
o bli g ati o n t o f or c e D e bt ors t o fil e t h e list i n q u esti o n, a n d t h er ef or e D e bt ors w er e u n d er n o
o bli g ati o n t o s e e k a s e ali n g or d er , a n d e v e n if t h e y w er e, t h e list w as li k el y c o m m er ci al
i nf or m ati o n.
3.

D u e P r o c ess

G L M n e xt ar g u es t h at it w as “ e vi d e nt fr o m t h e h e ari n g o n t h e [ V e n d or] M oti o n ” t h at it
w as d e ni e d d u e pr o c ess. (G L M’s M e m. at 3 1.) Asi d e fr o m its ar g u m e nts a b o ut d el e g ati o n a n d
s e ali n g ( a d dr ess e d a b o v e), G L M p oi nts t o o nl y o n e as p e ct of t h e h e ari n g. G L M ar g u e d t h at
D e bt ors s h o ul d b e r e q uir e d t o pr o vi d e t h e i d e ntiti es of t h e v e n d ors t o b e p ai d i n f ull – t h at is, t h e
criti c al v e n d ors, li e n cl ai m a nts a n d 5 0 3( b)( 9) cl ai m a nts – b ut t h e B a n kr u pt c y C o urt s ai d t h at w as
a m att er f or ar g u m e nt aft er t h e e vi d e n c e. ( H e ari n g Tr. at 6 9: 1 2 -2 0.) T h e n “[ w] h e n G L M a s k e d
8

T h e c as e o n w hi c h G L M r eli es h e a vil y i n its r e pl y, I n r e Dit e c h H ol di n g C or p., 2 0 1 9
W L 3 2 9 4 6 8 4, at * 9 , d o es n ot c o m p el a diff er e nt r es ult. G L M s a ys t h at t h e Dit e c h C o urt r ej e ct e d
d e bt ors’ ar g u m e nt t h at “ dis cl osi n g t h e i nf or m ati o n p u bli cl y w o ul d l e a d t o ‘a c o m p etiti v e
dis a d v a nt a g e if t h e C o urt u ns e als t h e r e d a ct e d i nf or m ati o n b e c a us e t h e y will l os e l e v er a g e i n
f ut ur e n e g oti ati o ns.’ ” D o c. 1 0 at 7 ( q u oti n g I n r e Dit e c h H ol di n g C or p., 2 0 1 9 W L 3 2 9 4 6 8 4, at
* 9) .) B ut t h er e a p art y s ettli n g wit h t h e d e bt ors f e ar e d t h at r e v el ati o n of t h e s ettl e m e nt t er ms
w o ul d r es ult i n its c o m p etiti v e dis a d v a nt a g e fr o m l oss of l e v er a g e i n f ut ur e n e g oti ati o ns wit h
t hir d p arti es. I n r e Dit e c h , 2 0 1 9 W L 3 2 9 4 6 8 4, at * 9. T h e c ourt m er el y r eit er at e d t h e p oi nt t h at
“ t h e c as es ar e cl e ar t h at b ar g ai ni n g l e v er a g e i n f ut ur e u nr el at e d c as es d o es n ot ris e t o t h e l e v el of
‘c o m m er ci al i nf or m a ti o n’ u n d er s e cti o n 1 0 7( b). ” Id. ( e m p h asis a d d e d). H er e, D e bt ors ar e n ot
w orri e d a b o ut l osi n g l e v er a g e i n f ut ur e u nr el at e d c as es, b ut i nst e a d ar e att e m pti n g t o e ns ur e t h eir
o w n r e h a bilit ati o n f or, at l e ast i n p art, t h e s a k e of t h eir cr e dit ors. I n r e Dite c h s a ys n ot hi n g of
w h et h er a b a n kr u pt c y c o urt m a y s e al as c o m m er ci al i nf or m ati o n t h e d e bt or’s criti c al v e n d ors a n d
a m o u nts d u e t o t h e m, w hi c h, if n ot s e al e d, m a y s eri o usl y h ar m t h e d e bt or’s est at e i n t h e i nst a nt
a cti o n.

29a

21

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 2 2 of 2 9

t h e D e bt ors’ wit n ess f or t h e n a m es of t h e criti c al v e n d ors [t o w h o m h e h a d s p o k e n a n d] t h e
D e bt ors o bj e ct e d o n r el e v a n c e, ” ( G L M’s M e m. at 3 1), t h e B a n kr u pt c y C o urt s ust ai n e d t h e
o bj e cti o n a n d s ai d t h at G L M w as s e e ki n g t his i nf or m ati o n i n or d er t o “ h ar m t h[e ] c o m p a n y ” a n d
t h at t h e i nf or m ati o n w as “ of n o us e w h ats o e v er t o t h e o bj e ct a nt. ” ( H e ari n g Tr. at 8 7: 1 5 -2 4.)
G L M’s d u e pr o c ess ar g u m e nt is u n c o n vi n ci n g. T h e B a n kr u pt c y C o urt a c c e pt e d bri efi n g
o n G L M’s o bj e cti o n, (B a n kr. D o c. 2 0 4 ), a n d h e ar d G L M’s ar g u m e nts o n t h es e e x a ct p oi nts at
t h e h e ari n g, ( H e ari n g Tr. at 6 8: 4 -6 9: 2 0, 1 0 0: 1 8 -1 0 9: 2 0). T h er e is n o i n di c ati o n t h at t h e
B a n kr u pt c y C o urt di d n ot c o nsi d er t h e ar g u m e nts G L M m a d e i n its p a p ers or at t h e h e ari n g. It is
t h us n ot e ntir el y cl e ar t o t h e C o urt w h at a d diti o n al pr o c ess G L M b eli e v es it is d u e, ot h er t h a n
wi n ni n g o n t h e m erits, w hi c h is n ot a m att er of pr o c ess at all. I n ot h er w or ds, th at t h e
B a n kr u pt c y C o urt d e ni e d G L M t h e r eli ef it s o u g ht d o es n ot m e a n it d e ni e d G L M d u e pr o c ess .
D e bt ors r e q u est e d t h at t h e i d e ntiti es of t h e criti c al v e n d ors b e k e pt c o nfi d e nti al, a n d t h e h e ari n g
w as i n p art h el d t o a dj u di c at e t h at r e q u est. It s h o ul d t h us b e n o s ur pris e t o G L M t h at w h e n it
as k e d f or t h e n a m es of t h e criti c al v e n d ors, t h e B a n kr u pt c y C o urt s ust ai n e d a n o bj e cti o n. G L M
h as f ail e d t o i d e ntif y a n y d u e pr o c ess vi ol ati o ns, a n d its ar g u m e nt o n t his s c or e is r ej e ct e d.
4.

M e rits of t h e C riti c al V e n d o r D et e r mi n ati o n

Fi n all y, G L M ar g u es t h at “ t his C o urt s h o ul d r e[ v ers e] t h e B a n kr u pt c y C o urt . . . b e c a us e
n eit h er t h e B a n kr u pt c y C o urt’s r uli n g n or t h e e vi d e n c e u n d er pi n ni n g t h at r uli n g j ustif y t h e
criti c al v e n d or p a y m e nts u n d er a n y st a n d ar d i d e ntifi e d b y t h e c as e l a w.” ( G L M’s M e m. at 3 2.)
As e x pl ai n e d i n I n r e I o n os p h er e, a b a n kr u pt c y c o urt m a y a ut h ori z e p a y m e nt of
pr e p etiti o n cl ai ms o n a p ost p etiti o n b asis p urs u a nt t o B a n kr u pt c y C o d e § § 3 6 3( b) a n d 1 0 5( a).
S e e 9 8 B. R. at 1 7 5 -7 6. “ A b a n kr u pt c y c o urt is e m p o w er e d p urs u a nt t o § 3 6 3 of t h e B a n kr u pt c y
C o d e t o a ut h ori z e a d e bt or t o e x p e n d f u n ds i n t h e b a n kr u pt c y c o urt ’s dis cr eti o n o utsi d e t h e

30a

22

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 2 3 of 2 9

or di n ar y c o urs e of b usi n ess , ” a n d it h as “ br o a d fl e xi bilit y i n t ail ori n g its or d ers t o m e et a wi d e
v ari et y of cir c u mst a n c es ,” as l o n g as D e bt ors “ a rti c ul at e s o m e b usi n ess justifi c ati o n, ot h er t h a n
m er e a p p e as e m e nt of m aj or cr e dit ors, f or usi n g, s elli n g or l e asi n g pr o p ert y o ut of t h e or di n ar y
c o urs e of b usi n ess . ” I d. at 1 7 5 .
A d diti o n all y, “ t o eff e ct u at e t h e p oli ci es a n d pr o visi o ns of t h e B a n kr u pt c y C o d e, t h e
B a n kr u pt c y C o ur t is als o e m p o w er e d p urs u a nt t o 1 1 U. S. C. § 1 0 5( a), t o ‘iss u e a n y or d er, pr o c ess
or j u d g m e nt t h at is n e c ess ar y or a p pr o pri at e t o c arr y o ut t h e pr o visi o ns of t his titl e.’” I d.
( q u oti n g 1 1 U. S. C. § 1 0 5( a) ) ( alt er ati o n o mitt e d). T h us, “ a B a n kr u pt c y C o urt [ m a y] a ut h ori z e
t h e p a y m e nt of pr e -p etiti o n d e bt w h e n s u c h p a y m e nt is n e e d e d t o f a cilit at e t h e r e h a bilit ati o n of
t h e d e bt or . ” I d. T his “ is c o m m o nl y r ef err e d t o as eit h er t h e ‘d o ctri n e of n e c essit y ’ or t h e
‘n e c essit y of p a y m e nt ’ r ul e, ” w hi c h “ r e c o g ni z es t h e e xist e n c e of t h e j u di ci al p o w er t o a ut h ori z e a
d e bt or i n a r e or g a ni z ati o n c as e t o p a y pr e -p etiti o n cl ai ms w h er e s u c h p a y m e nt is ess e nti al t o t h e
c o nti n u e d o p er ati o n of t h e d e bt or. ” I d. “ T h e d o ctri n e [of n e c essit y ], h o w e v e r, r e c ei v es li mit e d
a p pli c ati o n, ” a n d “ m er e c o n v e ni e n c e, wit h o ut n e c essit y, is i ns uffi ci e nt.” I n r e C. A. F. Bi n d er y,
I n c., 1 9 9 B. R. 8 2 8, 8 3 5 -3 6 ( B a n kr. S. D. N. Y. 1 9 9 6), c orr e ct e d ( S e pt. 4, 1 9 9 6) . T o “r et ai n t h e
n arr o w n ess a n d t h e e x c e pti o n al q u alit y of t h e D o ct ri n e: ( 1) t h e v e n d or m ust b e n e c ess ar y f or t h e
s u c c essf ul r e or g a ni z ati o n of t h e d e bt or; ( 2) t h e tr a ns a cti o n m ust b e i n t h e s o u n d b usi n ess
j u d g m e nt of t h e d e bt or; a n d ( 3) t h e f a v or a bl e tr e at m e nt of t h e criti c al v e n d or m ust n ot pr ej u di c e
ot h er u ns e c ur e d c r e dit ors. ” I n r e U nit e d , 3 2 7 B . R. at 7 8 2 .
Ulti m at el y, § § 3 6 3( b) a n d 1 0 5( a), as w ell as t h e c as e l a w i nt er pr eti n g t h e m, s er v e t h e
p ur p os e of i m p osi n g a “ d ut y ” o n t h e c o urts “ t o m ai nt ai n t h e est at e f or t h e b e n efit of all
cr e dit ors .” I n r e I o n os p h er e Cl u bs, I n c., 9 8 B. R. at 1 7 8 ( e m p h asis i n ori gi n al) ; s e e i d. at 1 7 6

31a

23

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 2 4 of 2 9

( “ T h us, th e r ati o n al e f or t h e ‘n e c essit y of p a y m e nt ’ r ul e, i. e. f a cilit ati n g t h e c o nti n u e d o p er ati o n
a n d r e h a bilit ati o n of t h e d e bt or . . . is . . . a p ar a m o u nt g o al of C h a pt er 1 1 .”).
G L M first f a ults t h e B a n kr u pt c y C o urt f or a ut h ori zi n g D e bt ors i n t h eir “s ol e dis cr eti o n ”
t o p a y t h eir criti c al v e n d or s, (G L M’s M e m. at 3 2 (i nt er n al q u ot ati o n m ar ks o mitt e d) ), b ut this is
t h e s a m e ar g u m e nt t h at G L M m a d e r e g ar di n g i m p er missi bl e d el e g ati o n of j u di ci al f u n cti o n –
t h at t h e B a n kr u pt c y C o urt i m p er missi bl y r eli e d o n D e bt ors’ r e pr es e nt ati o ns a n d b usi n ess
j u d g m e nt i n i d e ntif yi n g a n d p a yi n g criti c al v e n d ors – j ust f as hi o n e d as a m erits c h all e n g e. F or
t h e r e as o ns dis c uss e d a b o v e, G L M’s c h all e n g e t o t h e B a n kr u pt c y C o urt’s pr o c ess is r ej e ct e d.
A d diti o n all y , G L M misst at es t h e B a n kr u pt c y C o urt’s or d er. I n t h e Fi n al Or d er, t h e
B a n kr u p t c y C o urt a ut h ori z e d D e bt ors t o p a y t h eir criti c al v e n d ors o nl y “ u p t o t h e a m o u nt s et
f ort h f or e a c h c at e g or y of V e n d or Cl ai ms s et f ort h i n t h e [ V e n d or] M oti o n. ”

( Fi n al Or d er ¶ 2 .)

T h at a m o u nt w as s et aft er D e bt ors l ai d o ut t h e fr a m e w or k t h at t h e y us e d t o i d e ntif y t h e criti c al
v e n d ors , w hi c h th e B a n kr u pt c y C o urt f o u n d t o m e et t h e e vi d e nti ar y b ur d e n r e q uir e d t o est a blis h
t h at a v e n d or is criti c al . T h e B a n kr u pt c y C o urt t h us di d n ot gr a nt D e bt ors s ol e dis cr eti o n, b ut
r at h er d ef err e d t o t h eir b usi n ess j u d gm e nt r e g ar di n g w h e n t h e criti c al v e n d ors ( w hi c h w er e
alr e a d y i d e ntifi e d a n d c o nfir m e d b y t h e c o urt) w o ul d b e p ai d ( u p t o a n a m o u nt alr e a d y c al c ul at e d
a n d c o nfir m e d b y t h e c o urt) . J u d g e Dr ai n e ns ur e d t h at t h e i d e ntifi c ati o n of t h e v e n d ors w as d o n e
u n d er a pr o c ess t h at us e d t h e c orr e ct crit eri a a n d t h at p a y m e nts t o a n y s u c h v e n d or w o ul d b e
pr o m ptl y r e vi e w a bl e b y i nt er est e d st a k e h ol d ers. T h e B a n kr u pt c y C o urt f as hi o n e d t his or d er
u n d er its “ br o a d dis cr eti o n ” p urs u a nt t o § 3 6 3( b) t o e ns ur e t h at o nl y criti c al v e n d ors w o ul d b e
p ai d, w hil e n ot cri p pli n g D e bt ors’ est at e s b y h a vi n g i n di vi d u al h e ari n gs f or e a c h of t h e 2 6 3

32a

24

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 2 5 of 2 9

v e n d ors i d e ntifi e d, t h er e b y s atisf yi n g its “ d ut y t o m ai nt ai n t h e est at e f or t h e b e n efit of all
cr e dit ors . ” I n r e I o n os p h er e, 9 8 B. R. at 1 7 5, 1 7 8 ( e m p h asis i n ori gi n al). 9
G L M n e xt ar g u es t h at t h e B a n kr u pt c y C o urt’s r eli a n c e o n D e bt ors’ a ns w ers t o t h e t e n
q u esti o ns i d e ntifi e d i n t h e V e n d or M oti o n f ail e d t o t a k e i nt o a c c o u nt “ t h e t hr e e m ost criti c al
as p e cts of t h e D o ctri n e of N e c essit y . . . : t h at t h e v e n d or will r ef us e t o pr o vi d e g o o ds or s er vi c es
p ost p etiti o n, t h at t h e g o o ds or s er vi c es ar e criti c al t o t h e b usi n ess, a n d t h at t h e d e bt or h a v e n o
m e a ni n gf ul alt er n ati v e t o t h e v e n d or. ” ( G L M’s M e m. at 3 3 -3 4.) A d diti o n all y , G L M ar g u es t h at
t h e D e bt ors’ t e n-q u esti o n list d o es “ n ot i n cl u d e t h e criti c al r e q uir e m e nt t h at t h e v e n d or . . .
r ef us e d t o s u p pl y o n a p ost p etiti o n b asis wit h o ut its pr e p etiti o n cl ai m b ei n g p ai d . ” (I d. at 3 3.)
T h es e ar g u m e nt s ar e si m pl y n ot s u p p ort e d b y t h e c as e l a w or t h e r e c or d.
G L M’s ass erti o n t h at t h e d o ctri n e of n e c essit y r e q uir es “t h at t h e v e n d or h a v e r ef us e d t o
s u p pl y o n a p ost p etiti o n b asis wit h o ut its pr e p etiti o n cl ai m b ei n g p ai d ” is n ot s u p p ort e d b y t h e
c as es t h at G L M cit es. I n r e I o n os p h er e e x pl ai n e d t h at t h e “ d o ctri n e p er mits i m m e di at e p a y m e nt
of cl ai ms of cr e dit ors w h er e t h os e cr e dit ors will n ot s u p pl y s er vi c es or m at eri al ess e nti al t o t h e
c o n d u ct of t h e b usi n ess u ntil t h eir pr e -r e or g a ni z atio n cl ai ms s h all h a v e b e e n p ai d, ” b ut n o w h er e
i n t h at c as e di d t h e c o urt r e q uir e a f or m al r ef us al fr o m e a c h pr e p etiti o n cl ai m a nt pri or t o t h e

9

G L M’s att e m pt t o c h ar a ct eri z e t h e B a n kr u pt c y C o urt’s or d er as p ar a d o xi c al, ( D o c. 1 0 at
1 3 -1 4), is ill -c o n c ei v e d. S e cti o n 3 6 3( b) p er mits b a n kr u pt c y c o urts t o a ut h ori z e d e bt ors t o
e x p e n d f u n ds “ ot h er t h a n i n t h e or di n ar y c o urs e of b usi n ess. ” 1 1 U. S. C. § 3 6 3( b)( 1). H er e,
D e bt ors s o u g ht s u c h a ut h ori z ati o n b y fili n g a m oti o n f or c o urt a p pr o v al t o p a y pr e p etiti o n cl ai ms
o n a p ost p etiti o n b asis. W hil e, as G L M ass erts, p a y m e nt of d e bt is us u all y i n t h e or di n ar y
c o urs e, it is n ot w h er e a d e bt or is i n b a n kr u pt c y pr o c e e di n gs. Aft er r e c ei vi n g w ritt e n o bj e cti o ns
a n d h ol di n g a h e ari n g, as r e q uir e d b y § 3 6 3( b), t h e B a n kr u pt c y C o urt gr a nt e d D e bt ors’ m oti o n.
T h at t h e B a n kr u pt c y C o urt f as hi o n e d t h e r eli ef wit h r ef er e n c e t o t h e “ or di n ar y c o urs e of
b usi n ess ” d o es n ot m e a n t h at § 3 6 3( b) d o es n ot a p pl y. J u d g e Dr ai n’s Fi n al Or d er – e nt er e d o nl y
aft er D e bt ors h a d s h o w n its n e c essit y t o a s u c c essf ul r e or g a ni z ati o n – m er el y p er mitt e d p a y m e nts
t o b e m a d e i n t h e or di n ar y c o urs e t h at w o ul d ot h er wis e n ot b e i n t h e or di n ar y c o urs e b e c a us e t h e
c orr es p o n di n g d e bts h a d b e e n i n c urr e d pr e p etiti o n.

33a

25

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 2 6 of 2 9

p a y m e nt of t h os e cl ai ms . I n r e I o n os p h er e, 9 8 B. R. at 1 7 6 (i nt er n al q u ot ati o n m ar ks a n d
alt er ati o n s o mitt e d) . T o t h e c o ntr ar y, t h e c o urt t h er e h a d pr e vi o usl y p er mitt e d t h e d e bt or t o
c o nti n ui n g p a yi n g its o w n e m pl o y e es d es pit e a n y i n di c ati o n t h at t h e y h a d all f or m all y st at e d t h eir
i nt e nti o n t o n ot c o m e t o w or k if t h eir p a y m e nt w as d ef err e d. F urt h er, In r e U nit e d s ur v e y e d t h e
r el e v a nt c as e l a w o n t h e d o ctri n e of n e c essit y, i n cl u di n g I n r e I o n os p h er e, a n d l ai d o ut t h e pr o p er
t hr e e-f a ct or t est t o c o nsi d er i n a p pl yi n g t h e d o ctri n e t o criti c al v e n d ors: t h e v e n d or m ust b e
n e c ess ar y t o s u c c essf ul r e or g a ni z ati o n; t h e tr a ns a cti o n m ust b e i n t h e d e bt or’s s o u n d b usi n ess
j u d g m e nt; a n d ot h er u ns e c ur e d cr e dit ors m ust n ot b e pr ej u di c e d b y p a y m e nt t o t h os e criti c al
v e n d ors. 3 2 7 B. R. at 7 8 2. T his t est d o es n ot r e q uir e a f or m al r ef us al t o pr o vi d e s er vi c es, a n d
w hil e t h e e xist e n c e ( or n ot) of s u c h a r ef us al is a f a ct or t o b e c o nsi d er e d, G L M h as f ail e d t o
s u p p ort its c o nt e nti o n t h at it al o n e is dis p ositi v e. 1 0
T ur ni n g t o t h e r e c or d, D e bt ors as k e d a n d a ns w er e d , a m o n g ot h er q u esti o ns, t h e f oll o wi n g
i n i d e ntif yi n g t h eir criti c al v e n d ors:
• “ w h et h er a v e n d or is a s ol e-s o ur c e, li mit e d-s o ur c e, or hi g h -v ol u m e s u p pli er of
g o o ds or s er vi c es criti c al t o t h e D e bt ors’ b usi n ess o p er ati o ns ” ;
• “ w h et h er f ail ur e t o p a y all or p art of a p arti c ul ar v e n d or’s cl ai m c o ul d c a us e t h e
v e n d or t o . . . r ef us e t o s hi p i n v e nt or y or t o pr o vi d e criti c al s er vi c es o n a
p ost p etiti o n b asis ” ;
• “ w h et h er alt er n ati v e v e n d ors ar e a v ail a bl e t h at c a n pr o vi d e r e q uisit e v ol u m es of
si mil ar g o o ds or s er vi c es o n e q u al ( or b ett er) t er ms a n d, if s o, w h et h er t h e D e bt ors
w o ul d b e a bl e t o c o nti n u e o p er ati n g w hil e tr a nsiti o ni n g b usi n ess t h er et o” ; a n d

10

E v e n if t h e c as es di d r e q uir e a f or m al r ef us al t o tri g g er t h e d o ctri n e of n e c essit y, t h e
C o urt w o ul d fi n d t h at a p pli c ati o n of t h at r ul e h er e w o ul d b e i m pr a cti c a bl e. R e q uiri n g a r ef us al
fr o m e a c h v e n d or i n a c as e of t his si z e w o ul d b e s o ti m e- a n d r es o ur c e -c o ns u mi n g as t o m a k e it
i m pr a cti c al, a n d it w o ul d gr e atl y r e d u c e D e bt ors’ l e v er a g e i n n e g oti ati n g wit h t h eir v e n d ors,
w hi c h w o ul d ulti m at el y d o h ar m t o t h e e ntir e est at e a n d all of t h e cr e dit ors.

34a

26

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 2 7 of 2 9

• “ w h et h er f ail ur e t o p a y all or p art of a p arti c ul ar v e n d or’s cl ai m c o ul d c a us e t h e
v e n d or t o h ol d g o o ds o w n e d b y t h e D e bt ors, or r ef us e t o s hi p i n v e nt or y or t o
pr o vi d e criti c al s er vi c es o n a p ost p etiti o n b asis . ”
( V e n d or M oti o n ¶ 1 3.) T h es e q u esti o ns dir e ctl y a d dr ess t h e “ m ost criti c al as p e cts ” of t h e
d o ctri n e of n e c essit y t h at G L M i d e ntifi es as b ei n g o v erl o o k e d – t h at is, w h et h er a v e n d or will
r ef us e t o pr o vi d e g o o ds or s er vi c es p ost p etiti o n wit h o ut p a y m e nt , w h et h er t h e g o o ds or s er vi c es
ar e criti c al t o t h e b usi n ess, a n d w h et h er D e bt or s h a v e m e a ni n gf ul alt er n ati v e s t o t h e v e n d or . As
n ot e d, t h e B a n kr u pt c y C o urt is p er mitt e d t o p ut i n pl a c e effi ci e nt pr o c e d ur e s f or D e bt ors t o
f oll o w i nst e a d of h ol di n g a h e ari n g f or e a c h of t h e 2 6 3 v e n d ors , a n d t h e pr o c e d ur e i n pl a c e h er e
r e q uir e d D e bt ors t o a ns w er t h e “ criti c al ” q u esti o ns n e c ess ar y f or t h e criti c al v e n d or i n q uir y.
A d diti o n all y, G L M ’s ar g u m e nt t h at D e bt ors’ c o nsi d er ati o n of “li mit e d s o ur c e ” or “ hi g h -v ol u m e ”
s u p pli ers – i nst e a d of m er el y “s ol e -s o ur c e ” s u p pli ers – r e n d ers t h e fr a m e w or k fl a w e d is n ot
s u p p ort e d b y a n y a ut h orit y t h at o nl y s ol e-s o ur c e s u p pli ers c a n b e criti c al. T h e C o urt c a n t hi n k of
m a n y s c e n ari os i n w hi c h li mit e d-s o ur c e a n d hi g h -v ol u m e s u p pli ers c o ul d als o b e criti c al,
es p e ci all y w h er e alt er n ati v e v e n d ors a r e n ot a v ail a bl e , w hi c h w as a n ot h er q u esti o n D e bt ors
a ns w er e d i n cr e ati n g t h eir list of criti c al v e n d ors . (I d.) A c c or di n gl y, t h e pr o c e d ur es i n pl a c e
e ns ur e d t h at D e bt ors w er e n ot m er el y p a yi n g o ut pr e p etiti o n d e bts t o t h eir pr ef err e d cr e dit ors.
Fi n all y, G L M ar g u es th at t h e criti c al v e n d or list w as pr e p ar e d f or c o n v e ni e n c e, n ot
n e c essit y , b ut G L M f ail e d to s u p p ort t h at ar g u m e nt wit h a n y f a cts or l a w. H er e, t h e B a n kr u pt c y
C o urt’s s u m m ar y of its fi n di n gs s p o k e dir e ctl y t o t h e t hr e e-f a ct or t est s et f ort h i n I n r e U nit e d,
n ot e d a b o v e . S e e 3 2 7 B. R. at 7 8 2 . T h e c o urt s ai d it w as a ut h ori zi n g D e bt ors “ t o s p e n d m o n e y t o
pr o vi d e a n et b e n efit t o t h eir est at e i n t h eir b usi n ess j u d g m e nt, as r e vi e w e d b y t h e C o urt , ” a n d
t h e c o urt t o o k m e as ur es t o e ns ur e t h at t h e pr o c ess “is s uffi ci e nt ” a n d “ pr ot e ct[s] t h e D e bt or[s’ ]
b usi n ess f or all c o nstit u e nts ,” b y h a vi n g D e bt ors pr o vi d e t h e m atri x t o t h e U .S . Tr ust e e a n d
Offi ci al C o m mitt e e of U ns e c ur e d Cr e dit ors . ( H e ari n g Tr. at 1 0 9: 6 -1 7.) T h e B a n kr u pt c y C o urt

35a

27

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 2 8 of 2 9

cr e at e d a n effi ci e nt pr o c e d ur e w h er e b y it a ut h ori z e d D e bt ors t o a ns w er t e n q u esti o ns, w hi c h t h e
B a n kr u pt c y C o urt d e v el o p e d “ fr o m bitt er e x p eri e n c e i n pr a cti c e, ” (H e ari n g Tr. at 1 0 8 : 1 7-1 8 ), t o
d et er mi n e w h et h er a v e n d or w as n e c ess ar y a n d t o e ns ur e t h at p a yi n g t h e v e n d or w o ul d h el p
r e h a bilit at e D e bt ors, as o p p os e d t o s a p pi n g t h eir est at es of ass ets . T h e B a n kr u pt c y C o urt g a v e
D e bt ors t h e dis cr eti o n t o us e t h eir b usi n ess j u d g m e nt i n d e ci di n g w hi c h v e n d ors t o p a y a n d h o w
m u c h, b ut o nl y wit hi n t h e c o nfi n es of its r uli n gs as t o t h e pr o pri et y of t h e criti c al -v e n d or
d esi g n at i o ns a n d t h e m a xi m u m a m o u nt of a n y s u c h p a y m e nt. A n d fi n all y, t h e B a n kr u pt c y C o urt
e x pl ai n e d t h at r el yi n g o n D e bt ors’ r e pr es e nt ati o ns r e g ar di n g t h e a ns w ers t o t h e t e n-q u esti o n t est
w o ul d b e n efit all cr e dit ors , as o p p os e d t o r e q uiri n g c ostl y a n d ti m e-c o ns u mi n g h e ari n gs o n e a c h
of t h e 2 6 3 pr o p os e d criti c al v e n d ors , w hi c h w o ul d li k el y r es ult i n “t h e p ati e nt d [yi n g ] o n t h e
o p er ati n g t a bl e. ” ( H e ari n g Tr. at 1 0 4 : 1 1-1 3 .). T h at G L M w as t h e o nl y cr e dit or t o o bj e ct t o t h e
V e n d or M oti o n , (i d. a t 2 3: 1 9 -2 0), f urt h er s u p p ort e d J u d g e Dr ai n’s c o n cl usi o n t h at t h e criti c al
v e n d or p a y m e nts h el p e d, n ot pr ej u di c e d, t h e u ns e c ur e d cr e dit ors. A c c or di n gl y , t h e B a n kr u pt c y
C o urt a p pr o pri at el y a p pli e d t h e d o ctri n e of n e c essit y i n t his c as e.
I n s u m, t h e B a n kr u pt c y C o urt utili z e d its br o a d “ e q uit a bl e p o w er ” t o e ns ur e t h e
r e h a bilit ati o n of D e bt ors a n d vi a bilit y of t h e est at e f or all cr e dit ors, b y “ e n a bl[i n g D e bt ors ] to . . .
p a y [t h eir] cr e dit or s. ” I n r e I o n os p h er e, 9 8 B. R. at 1 7 7 (i nt er n al q u ot ati o n m ar ks o mitt e d); s e e I n
r e Fi n. N e ws, 1 3 4 B. R. at 7 3 6 ( k e y c o nsi d er ati o n is w h et h er p a yi n g pr e p etiti o n cl ai ms k e e ps
“r e or g a ni z ati o n eff ort ali v e ”). G L M, t h e s ol e cr e dit or t o o bj e ct, h as f ail e d t o s h o w t h at t h e
B a n kr u pt c y C o urt err e d b y d oi n g s o.

36a

28

C a s e 7: 1 9- c v- 0 4 8 5 4- C S

I V.

D o c u m e nt 1 1

Fil e d 0 4/ 0 3/ 2 0

P a g e 2 9 of 2 9

C O N C L U SI O N
F or t h e f or e g oi n g r e as o ns, t h e B a n kr u pt c y C o urt’s Fi n al Or d er is A F FI R M E D i n all

r es p e cts. T h e Cl er k of C o urt is r es p e ctf ull y dir e ct e d t o cl os e t his c as e .
S O O R D E R E D.
D at e d: A pril 3 , 2 0 2 0
W hit e Pl ai ns, N e w Y or k
_____________________________
C A T H Y S EI B E L, U. S. D.J.

37a

29

1 9- 2 2 3 1 2-r d d

Doc 377

Fil e d 0 4/ 2 2/ 1 9

E nt er e d 0 4/ 2 2/ 1 9 1 6: 3 8:
D ato ce uFil
me ed:nt004/22/2019
Docket
Filed:
D o 4c k3 et ##0377
0M3ai7 7n DDate
4/ 2 2/ 2 0 1 9
P g 1 of 5

U NI T E D S T A T E S B A N K R U P T C Y C O U R T
S O U T H E R N DI S T RI C T O F N E W Y O R K
)
)
)
)
)
)
)

I n r e:
WI N D S T R E A M H O L DI N G S, I N C., et al. ,1
D e bt ors.
FI N A L O R D E R
C E R T AI N P R E P E TI
(II) LI E N C L AI M A N
I N T H E O R DI N A R Y C O

C h a pt er 1 1
C as e N o. 1 9- 2 2 3 1 2 ( R D D)
(J oi ntly A d mi nist er e d)

A U T H O RI ZI N G T H E D E B T O R S T O P A Y
TI O N C L AI M S O F (I) C RI TI C A L V E N D O R S,
T S, A N D (III) S E C TI O N 5 0 3( B)( 9) C L AI M A N T S
U R S E O F B U SI N E S S O N A P O S T P E TI TI O N B A SI S

U p o n t h e m oti o n (t h e “ M oti o n ”)

2

of t h e a b o v e- c a pti o n e d d e btors a n d d e bt ors i n p oss essi o n

( c oll e cti v el y, t h e “ D e bt ors ”) f or t h e e ntr y of a fi n al or d er (t his “ Fi n al Or d er ”), a ut h ori zi n g t h e
D e bt ors t o c o nti n u e t h eir pr e p etiti o n b usi n ess o p er ati o ns, p oli c i es, a n d pr o gr a ms a n d t o p a y
V e n d or Cl ai ms, o n a p ost p etiti o n b asis i n t h e or di n a r y c o urs e of b usi n ess, all as m or e f ull y s et
f ort h i n t h e M oti o n; a n d u p o n t h e First D a y D e cl arati o n; a n d t his C o urt h a vi n g j uris di cti o n o v er
t his m att er p urs u a nt t o 2 8 U. S. C. § § 1 5 7( a)-( b) a n d 1 3 3 4( b) a n d t h e A m e n d e d St a n di n g Or d er of
R ef er e n c e fr o m t h e U nit e d St at es Distri ct C o urt f or t h e S o ut h er n Distri ct of N e w Y or k , d at e d
F e br u ar y 1, 2 0 1 2; t his C o urt h a vi n g f o u n d t h at t his is a c or e pr o c e e di n g p urs u a nt t o 2 8 U. S. C. §
1 5 7( b)( 2 t h at t his C o urt m a y d e ci d e b y fi n al or d er c o nsist e nt w it h Arti cl e III of t h e U nit e d St at es
C o nstit uti o n; a n d t his C o urt h a vi n g f o u n d t h at v e n u e of t h e

M oti o n i n t his distri ct is pr o p er

p urs u a nt t o 2 8 U. S. C. § § 1 4 0 8 a n d 1 4 0 9; a n d t his C o urt h a vi n g f o u n d t h at t h e D e bt ors’ n oti c e of

1

T h e l ast f o ur di gits of D e bt or Wi n dstr e a m H ol di n gs, I nc.’s t a x i d e ntifi c ati o n n u m b er ar e 7 7 1 7. D u e t o t h e l ar g e
n u m b er of d e bt or e ntiti es i n t h es e c h a pt er 1 1 c as es, f or w h i c h t h e D e bt ors h a v e r e q u est e d j oi nt a d mi nistr ati o n, a
c o m pl et e list of t h e d e bt or e ntiti es a n d t h e l ast f o ur di gits of t h eir f e d er al t a x i d e ntifi c ati o n n u m b ers is n ot pr o vi d e d
h er ei n. A c o m pl et e list of s u c h i nf or m ati o n m a y b e o bt ai n e d o n t h e w e bsit e of t h e D e bt ors’ pr o p os e d cl ai ms a n d
n oti ci n g a g e nt at htt p:// w w w. k c cll c. n et/ wi n dstr e a m. T h e l o c a ti o n of t h e D e bt ors’ s er vi c e a d dr ess f or p ur p os es of
t h es e c h a pt er 1 1 c as es is: 4 0 0 1 N ort h R o d n e y P ar h a m R o a d, Littl e R o c k, Ar k a ns as 7 2 2 1 2.

2

C a pit ali z e d t er ms us e d b ut n ot ot h er wis e d efi n e d h er ei n s h all h a v e t h e m e a ni n gs as cri b e d t o t h e m i n t h e M oti o n.

38a

¨ 1 ¤ |1922312190422000000000021
7,3$6
553«
3«
¨1¤|7,3$6
1922312190422000000000021

1 9- 2 2 3 1 2-r d d

Doc 377

Fil e d 0 4/ 2 2/ 1 9

E nt er e d 0 4/ 2 2/ 1 9 1 6: 3 8: 4 3
P g 2 of 5

M ai n D o c u m e nt

t h e M oti o n a n d o p p ort u nit y f or a h e ari n g o n t h e M oti o n w er e a p pr o pri at e un d er t h e cir c u mst a n c es
a n d t h at n o ot h er n oti c e n e e d b e pr o vi d e d; a n d u p o n t h e r e c or d of t h e h e ari n gs h el d b y t h e C o urt
o n t h e M oti o n; a n d aft er d u e d eli b er ati o n t his C o ur t h a vi n g d et er mi n e d t h at t h e l e g al a n d f a ct u al
b as es s et f ort h i n t h e M oti o n a n d at t h e h e ari n gs est a blis h j ust c a us e f or t h e r eli ef gr a nt e d h er ei n,
i n cl u di n g ( a) t h at t h e r eli ef gr a nt e d h er ei n will pr o vi d e a m at eri al n et b e n efit t o t h e D e bt ors’ est at es
a n d cr e dit ors aft er t a ki n g i nt o a c c o u nt t h e B a n kr u pt c y C o d e’s pri orit y s c h e m e a n d ( b) t h at t h e
pr o c e d ur es f or d et er mi ni n g t h e a p pl i c ati o n of t h e r eli ef gr a nt e d h er eb y ar e c al c ul at e d t o r es ult o nl y
i n t h e p a y m e nt of t h os e cl ai ms t o t h e e xt e nt n ec ess ar y t o t h e o p er ati o n of t h e D e bt ors’ b usi n ess
u p o n a p pr o pri at e t er ms; a n d u p o n all of t h e pr o c e e di n gs h a d b ef or e t his C o urt; a n d s uffi ci e nt c a us e
a p p e ari n g t h er ef or, it is h er e b y O R D E R E D t h at:
1.

T h e M oti o n is gr a nt e d o n a fi n al b asis as s et f ort h h er ei n.

2.

T h e D e bt ors ar e a ut h ori z e d, b ut n ot dir e ct e d, i n t h eir s ol e dis cr eti o n, t o c o nti n u e

t h eir pr e p etiti o n b usi n ess o p er ati o ns, p oli ci es, a n d pr o gr a ms a n d p a y a n y a c cr u e d b ut u n p ai d
pr e p etiti o n V e n d or cl ai ms o n a p ost p etiti o n b asis i n t h e or di n ar y c o urs e of b usi n ess or as m a y b e
n e c ess ar y t o s e c ur e a v e n d or’s a gr e e m e nt t o c o nti n u e b usi n ess wit h t h e D e bt ors o n C ust o m ar y
Tr a d e T er ms, u p t o t h e a m o u nt s et f ort h f or e a c h c at e g or y of V e n d or Cl ai ms s et f ort h i n t h e M oti o n.
3.

T h e D e bt ors s h all m ai nt ai n a m atri x s u m m ari zi n g a m o u nts p ai d o n a c c o u nt of t h e

Criti c al V e n d or Cl ai ms s u bj e ct t o t h e t er ms of t his Fi n al Or d er, i n cl u di n g t h e f oll o wi n g
i nf or m ati o n: ( a) t h e n a m e of t h e Criti c al V e n d or p ai d; ( b) t h e n at ur e of t h e g o o ds or s er vi c es
pr o vi d e d b y e a c h Criti c al V e n d or; ( c ) t h e a m o u nt p ai d t o e a c h Critic al V e n d or ( e a c h a “ P a y m e nt ”);
( d) t h e t ot al a m o u nt p ai d t o t h e Criti c al V e n d or t o d at e; ( e) t h e D e bt or or D e bt ors w h o m a d e t h e
P a y m e nt; (f) t h e d at e of t h e P a y m e nt; a n d ( g) t h e p ur p os e of t h e P a y m e nt. T his m atri x will b e
pr o vi d e d e v er y w e e k t o t h e U. S. Tr ust e e t h e Offi ci al C o m mitt e e of

2
39a

U ns e c ur e d Cr e dit ors

1 9- 2 2 3 1 2-r d d

Doc 377

Fil e d 0 4/ 2 2/ 1 9

E nt er e d 0 4/ 2 2/ 1 9 1 6: 3 8: 4 3
P g 3 of 5

M ai n D o c u m e nt

(t h e “ C o m mitt e e ”), a n d a n y ot h er st at ut or y c o m mitte e a p p oi nt e d i n t h es e c h a pt er 1 1 c as es. T h e
D e bt ors s h all pr o vi d e t h e U. S. Tr ust e e, t h e a d vi s ors t o t h e C o m mitt e e, a n d a n y ot h er st at ut or y
c o m mitt e e, a n d t o t h e C o urt f or a n i n c a m er a r e vi e w, wit h a c o m pl et e list of t h e D e bt ors’ Criti c al
V e n d ors, as s o o n as r e as o n a bl y pr a cti c a bl e.
4.

T o t h e e xt e nt t h e D e bt ors pr o p os e t o m a k e a p a y m e nt t h at is m at e ri all y i n c o nsist e nt

wit h t h e pr oj e ct e d criti c al v e n d or p a y m e nts s et f ort h o n t h e v e n d or m atri x pr o vi d e d t o t h e
C o m mitt e e, t h e D e bt ors will c o ns ult wit h c o u ns el t o t h e C o m mitt e e r e g ar di n g t h e pr o p os e d
p a y m e nt a n d pr o vi d e c o u ns el t o t h e C o m mitt e e, t o t h e e xt e nt r e as o n a bl y pr a cti c a bl e, wit h t hr e e
b usi n ess d a ys’ a d v a n c e n oti c e of s u c h p a y m e nts ( o r as s o o n t h er e aft er as r e as o n a bl y pr a cti c a bl e).
5.

N ot wit hst a n di n g t h e r eli ef gr a nt e d i n t his Fi n al Or d er a n d a n y a cti o ns t a k e n

p urs u a nt t o s u c h r eli ef, n ot hi n g i n t his Fi n al Or d er s h all b e d e e m e d: ( a) a n a d missi o n as t o t h e
v ali dit y of a n y pr e p etiti o n cl ai m a g ai nst a D e bt or e ntit y; ( b) a w ai v er of t h e ri g hts of t h e D e bt ors
or t h e C o m mitt e e t o dis p ut e a n y pr e p etiti o n cl a i m o n a n y gr o u n ds; ( c) a pr o mis e or r e q uir e m e nt t o
p a y a n y pr e p etiti o n cl ai m; ( d) a n i m pli c ati o n or a d missi o n t h at a n y p arti c ul ar cl ai m is of a t y p e
s p e cifi e d or d efi n e d i n t his Fi n al Or d er or t h e M o ti o n; ( e) a r e q u est or a uth ori z ati o n t o ass u m e a n y
pr e p etiti o n a gr e e m e nt, c o ntr a ct , or l e as e p urs u a nt t o s e cti o n 3 6 5 of t h e B a n kr u pt c y C o d e; (f) a
w ai v er or li mit ati o n of t h e D e bt ors’ ri g hts or t h e ri g hts of a n y ot h er p ers o n u n d er t h e B a n kr u pt c y
C o d e or a n y ot h er a p pli c a bl e l a w; or ( g) a c o n c essi o n b y t h e D e bt ors t h at a n y li e ns ( c o ntr a ct u al,
c o m m o n l a w, st at ut or y, or ot h er w is e) s atisfi e d p urs u a nt t o t h e M oti o n ar e v ali d, a n d t h e D e bt ors
e x pr essl y r es er v e t h eir ri g hts t o c o nt est t h e e xt e nt , v ali dit y, or p erf e cti o n or s e e k a v oi d a n c e of all
s u c h li e ns.
6.

T h e b a n ks a n d fi n a n ci al i nstit uti o ns o n w hi c h c h e c ks w er e dr a w n or el e ctr o ni c

p a y m e nt r e q u ests m a d e i n p a y m e nt of t h e pr e p eti ti o n o bli g ati o ns a p pr o v e d h er ei n ar e a ut h ori z e d

3
40a

1 9- 2 2 3 1 2-r d d

Doc 377

Fil e d 0 4/ 2 2/ 1 9

E nt er e d 0 4/ 2 2/ 1 9 1 6: 3 8: 4 3
P g 4 of 5

M ai n D o c u m e nt

a n d dir e ct e d t o r e c ei v e, pr o c ess, h o n or, a n d p a y all s u c h c h e c ks a n d el e ctr o ni c p a y m e nt r e q u ests
w h e n pr es e nt e d f or p a y m e nt, a n d all s u c h b a n ks a n d fi n a n ci al i nstit uti o ns ar e a ut h ori z e d t o r el y o n
t h e D e bt ors’ d esi g n ati o n of a n y p arti c ul ar c h e c k or el e ctr o ni c p a y me nt r e q u est as a p pr o v e d b y t his
Fi n al Or d er wit h o ut a n y d ut y t o i n q uir e ot h er wis e a n d wit h o ut li a bilit y f or f oll o wi n g t h e D e bt ors’
i nstr u cti o ns.
7.

N ot wit hst a n di n g a n yt hi n g i n t h e M oti o n, t h e I nt eri m Or d er, or t his Fi n al Or d er t o

t h e c o ntr ar y, a n y p a y m e nt m a d e or a cti o n t a k e n b y a n y of t h e D e bt ors p urs u a nt t o t h e a ut h orit y
gr a nt e d h er ei n, as w ell as t h e e x er cis e of a n y a n d all ot h er ri g hts a n d a ut h ori z ati o ns gr a nt e d or
a p pr o v e d h er e u n d er, s h all b e s u bj e c t i n all r es p e cts t o, as a p plic a bl e: (i) t h e or d ers a p pr o vi n g t h e
D e bt ors’ us e of c as h c oll at er al a n d/ or p ost- p etiti o n d e bt or-i n- p oss essi o n fi n a n ci n g f a ciliti es
( c oll e cti v el y, t h e “ DI P Or d ers ”); (ii) t h e ot h er d o c u m e nt ati o n g o v er ni n g t h e D e bt ors’ us e of c as h
c oll at er al a n d p ost p etiti o n fi n a n ci n g f a ciliti es; a n d (iii) t h e B u d g et ( as d efi n ed i n t h e DI P Or d ers).
8.

T o t h e e xt e nt t h er e is a n y i n c o nsist e n c y b et w e e n t h e t er ms of a n y of t h e DI P Or d ers

a n d t his Fi n al Or d er, t h e t er ms of t h e DI P Or d er ( or DI P Or d ers, as a p pli c a bl e) s h all c o ntr ol.
9.

T h e D e bt ors ar e a ut h ori z e d t o iss u e p ost p etiti o n c h e c ks, or t o eff e ct p ost p etiti o n

f u n d tr a nsf er r e q u ests, i n r e pl a c e m e nt of a n y c h e c ks or f u n d tr a nsf er r e q u es ts t h at ar e dis h o n or e d
as a c o ns e q u e n c e of t h es e c h a pt er 1 1 c as es wit h r es p e ct t o pr e p etiti o n a m o u nts o w e d i n c o n n e cti o n
wit h a n y of t h e pr e p etiti o n cl ai ms.
1 0.

T h e c o nt e nts of t h e M oti o n s atisf y t h e r e q uir e m e nts of B a n kr u pt c y R ul e 6 0 0 3( b).

1 1.

N oti c e of t h e M oti o n as pr o vi d e d t h er ei n s h all b e d e e m e d g o o d a n d s uffi ci e nt n oti c e

of s u c h M oti o n a n d t h e r e q uir e m e nt s of B a n kr u pt c y R ul e 6 0 0 4( a) a n d t h e L o c al R ul es ar e s atisfi e d
b y s u c h n oti c e.

4
41a

1 9- 2 2 3 1 2-r d d

1 2.

Doc 377

Fil e d 0 4/ 2 2/ 1 9

E nt er e d 0 4/ 2 2/ 1 9 1 6: 3 8: 4 3
P g 5 of 5

M ai n D o c u m e nt

N ot wit hst a n di n g B a n kr u pt c y R ul e 6 0 0 4( h), t h e t er ms a n d c o n diti o ns of t his Fi n al

Or d er ar e i m m e di at el y eff e cti v e a n d e nf or c e a bl e u p o n its e ntr y.
1 3.

T h e D e bt ors a n d t h eir affili at es ar e a ut h ori z e d t o t a k e all a cti o ns n e c ess ar y t o

eff e ct u at e t h e r eli ef gr a nt e d i n t his Fi n al Or d e r i n a c c or d a n c e wit h t h e M oti o n (i n cl u di n g, wit h o ut
li mit ati o n, m a ki n g c o pi es of t his Fi n al Or d er, t he M oti o n, a n d a n y m at eri als or ot h er i nf or m ati o n
r el at e d t h er et o a v ail a bl e i n a n y l o c al l a n g u a g e i n a j uris di cti o n i n w hi c h t h e D e bt ors or t h eir
affili at es o p er at e).
1 4.

T his C o urt r et ai ns e x cl usi v e j uris di cti o n wit h r es p e ct t o all m att ers arisi n g fr o m or

r el at e d t o t h e i m pl e m e nt atio n, i nt er pr et ati o n, a n d e nf or c e m e nt of t his Fi n al Or d er.
D at e d:

W hit e Pl ai ns, N e w Y or k
A pril 2 2, 2 0 1 9

/s/ R o b ert D. Dr ai n
T H E H O N O R A B L E R O B E R T D. D R AI N
U NI T E D S T A T E S B A N K R U P T C Y J U D G E

5
42a

